     AUDIT OF OFFICE OF JUSTICE PROGRAMS

        NATIONAL INSTITUTE OF JUSTICE

    CONTINUATION COOPERATIVE AGREEMENT

  AWARDED TO THE UNIVERSITY OF DENVER FOR

OPERATION OF WEAPONS AND PROTECTIVE SYSTEMS

      TECHNOLOGY CENTER OF EXCELLENCE

              DENVER, COLORADO





           U.S. Department of Justice

         Office of the Inspector General

                  Audit Division



          Audit Report GR-60-11-008

                  March 2011

     AUDIT OF OFFICE OF JUSTICE PROGRAMS

        NATIONAL INSTITUTE OF JUSTICE

    CONTINUATION COOPERATIVE AGREEMENT

  AWARDED TO THE UNIVERSITY OF DENVER FOR

OPERATION OF WEAPONS AND PROTECTIVE SYSTEMS

      TECHNOLOGY CENTER OF EXCELLENCE

              DENVER, COLORADO



                     EXECUTIVE SUMMARY


      The Office of the Inspector General, Audit Division, has
completed an audit of Cooperative Agreement No. 2009-IJ-CX-K010
awarded by the Office of Justice Programs (OJP), National Institute of
Justice (NIJ) to the University of Denver in the amount of $1,550,000
for the operation of the Weapons and Protective Systems Center of
Excellence.

      OJP’s mission is to increase public safety and improve the fair
administration of justice across America through innovative leadership
and programs. OJP seeks to accomplish its mission by disseminating
state-of-the-art knowledge and practices across America by providing
grants for the implementation of these crime fighting strategies. To
support this mission, the NIJ provides objective independent
evidence-based knowledge and tools to meet the challenges of crime
and justice, particularly at the state and local levels.

      To this end, on September 20, 2007, the NIJ established the
Weapons and Protective Systems Technologies Center of Excellence
(WPSTC) at the Pennsylvania State University (Penn State) as part of
the National Law Enforcement and Corrections Technology
Center (NLECTC) System. The University of Denver is a partner with
Penn State in facilitating WPSTC, and was originally funded under an
award to Penn State. According to documentation from NIJ, Penn
State continued to be funded through that original award, and a
decision was made in 2009 to fund the University of Denver under a
separate agreement. According to NIJ, this was done to simplify grant
management and to eliminate the administrative costs incurred by
moving funds to the University of Denver through Penn State.
       WPSTC supports the NIJ’s Office of Science and Technology’s
(OST) research, development, test, and evaluation process by
assisting in the identification of state and local criminal justice agency
technology needs and operational requirements; coordinating testing,
demonstration, and evaluation of new technologies emerging from the
OST Research and Development cycle to assist state and local
agencies with their purchasing decisions; and assisting in capacity
building and technology assistance to the public safety community.
The principal focus of WPSTC is supporting OST's research,
development, test, and evaluation process by hosting Technical
Working Groups (TWGs) associated with the Explosives, Corrections,
and Officer Safety and Protective Technologies (OSPT) portfolios.
WPSTC participates at conferences and exhibitions, and manages
activities in support of the research, development, test, and evaluation
process.

       The purpose of this audit was to determine whether
reimbursements claimed for costs under the cooperative agreement
were allowable, supported, and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the cooperative
agreement, and to determine program performance and
accomplishments. The objective of our audit was to review
performance in the following areas: (1) internal control environment;
(2) drawdowns; (3) cooperative agreement expenditures, including
personnel and indirect costs; (4) budget management and control;
(5) matching; (6) property management; (7) program income;
(8) financial and progress reports; (9) cooperative agreement
requirements; (10) program performance and accomplishments; and
(11) monitoring of subrecipients and contractors. We determined that
matching costs, property management, program income, and
monitoring of subrecipients were not applicable to this cooperative
agreement.

       As shown in Exhibit 1, the University of Denver was awarded a
total of $1,724,998 through the cooperative agreement.




                                    ii
EXHIBIT 1. NLECTC PROGRAM COOPERATIVE AGREEMENT TO
           THE UNIVERSITY OF DENVER
     COOPERATIVE                               AWARD END
                             AWARD DATE                          AWARD AMOUNT
   AGREEMENT AWARD                               DATE
    2009-IJ-CX-K010           09/23/2009       09/30/2010          $ 1,550,000
      Supplement 1 1          09/16/2010       09/30/2011               174,998
                                                    Total:         $ 1,724,998
Source: OJP Grants Management System (GMS)

      We examined the University of Denver’s accounting records,
financial and progress reports, and operating policies and procedures,
and found:

   •	 drawdowns were properly deposited, and were cumulatively less
      than the actual expenditures per accounting records;

   •	 expenditures exceeded the approved budget in two budget
      categories, but these amounts did not exceed the ten percent
      threshold allowed in the OJP Financial Guide;

   •	 the Federal Financial Reports (FFRs) were submitted in a timely
      manner and cumulatively accurate;

   •	 the Progress Reports were submitted accurately and generally in
      a timely manner;

   •	 no indication that the University of Denver’s WPSTC program is
      not on track to accomplish the goals and objectives of the
      cooperative agreement; and

   •	 generally, the University of Denver is sufficient at monitoring
      their contractors.

      The University of Denver’s policies and procedures provided for
segregation of duties, transaction traceability, and system security.
However, we identified internal control weaknesses, which resulted in
unallowable indirect costs and cooperative agreement expenditures,
compensation to unapproved personnel positions, unsupported
contractor payments, the engagement in improperly awarded


       1
          We noted that as of September 20, 2010, no money had been drawn down
for Supplement 1; therefore, we did not include it in the scope of the audit. This
matter is discussed further in Appendix I of this report.

                                         iii
contracts, and the utilization of an unallowable contracting method.
Specifically, we found:

  •	 a fee for property damage that does not qualify as a normal
     repair or maintenance fee, totaling $900, and an indirect cost
     prompted by this transaction, totaling $234;

  •	 unsupported payments to a contractor totaling $33,000;

  •	 travel costs, relating to another NLECTC program, were charged
     to the WPSTC program, totaling $9,038;

  •	 costs associated with the payroll and fringe benefits for two
     unapproved personnel positions, totaling $44,071;

  •	 10 of the 11 contracts funded under the cooperative agreement
     were not competitively bid as required by the award special
     conditions, resulting in unallowable payments to these
     contractors totaling $454,285; and

  •	 an unallowable contracting method was utilized for the

     remaining contract, resulting in questioned costs totaling

     $77,814 related to the contractor’s fee for services.


     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope,
and methodology are discussed in Appendix I.




                                   iv
                                               TABLE OF CONTENTS

INTRODUCTION..........................................................................................................1

       Background .........................................................................................................2

       Our Audit Approach ..............................................................................................6

FINDINGS AND RECOMMENDATIONS .........................................................................8

       Internal Control Environment .................................................................................8

              Single Audit .................................................................................................8

              Prior OIG Report...........................................................................................9

              Site Visits ....................................................................................................9

              Financial Management System ..................................................................... 10

       Drawdowns........................................................................................................ 12

       Budget Management and Control.......................................................................... 13

       Cooperative Agreement Expenditures.................................................................... 14

              Direct Costs – Unallowable Transactions ........................................................ 14

              Direct Costs – Unsupported Contractor Transactions ....................................... 15

              Direct Costs – Separation of Funds ............................................................... 16

              Personnel Costs .......................................................................................... 17

              Indirect Costs............................................................................................. 18

       Reports ............................................................................................................. 19

              Financial Reports ........................................................................................ 19

              Categorical Assistance Progress Reports ........................................................ 21

       Compliance with Cooperative Agreement Requirements........................................... 22

              Special Condition 7 – Reporting Events.......................................................... 22

              Special Condition 24 – Procurement and Bidding Processes .............................. 23

              Special Condition 24 – Contracting Methods ................................................... 25

       Program Performance and Accomplishments .......................................................... 26

       Monitoring Contractors ........................................................................................ 28

       Recommendations .............................................................................................. 31

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY .........................................32

APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS......................................34

APPENDIX III - DETAILED UNALLOWABLE COSTS FROM DIRECT AND INDIRECT

TRANSACTION TESTING ...........................................................................................35

APPENDIX IV - DETAILED UNSUPPORTED CONTRACTOR COSTS...............................36

APPENDIX V - DETAILED UNALLOWABLE TRAVEL COSTS .........................................37

APPENDIX VI - DETAILED UNBUDGETED PERSONNEL COSTS ...................................38

APPENDIX VII - DETAILED COSTS FOR CONTRACTORS THAT WERE NOT

COMPETITIVELY BID ................................................................................................39

APPENDIX VIII - DETAILED FEES FROM CONTRACTOR RESPONSIBLE FOR TRAVEL

ARRANGEMENTS .......................................................................................................40

APPENDIX IX - UNIVERSITY OF DENVER RESPONSE TO DRAFT AUDIT REPORT .......42

APPENDIX X - OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION, COMMENTS 

ON UNIVERSITY OF DENVER’S RESPONSE TO THE DRAFT REPORT ...........................51

APPENDIX XI - OFFICE OF JUSTICE PROGRAMS RESPONSE TO DRAFT AUDIT REPORT

   63

APPENDIX XII - OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION, ANALYSIS 

AND SUMMARY OF ACTIONS NECESSARY TO CLOSE AUDIT REPORT.........................66

         AUDIT OF OFFICE OF JUSTICE PROGRAMS

            NATIONAL INSTITUTE OF JUSTICE

        CONTINUATION COOPERATIVE AGREEMENT

 AWARDED TO THE UNIVERSITY OF DENVER FOR OPERATION

   OF WEAPONS AND PROTECTIVE SYSTEMS TECHNOLOGY 

                CENTER OF EXCELLENCE

                  DENVER, COLORADO



                          INTRODUCTION


      The Office of the Inspector General, Audit Division, has
completed an audit of Cooperative Agreement No. 2009-IJ-CX-K010
awarded by the Office of Justice Programs (OJP), National Institute of
Justice (NIJ) to the University of Denver in the amount of $1,550,000
for the operation of the Weapons and Protective Systems Center of
Excellence.

       The Weapons and Protective Systems Technology Center of
Excellence (WPSTC), supports the Office of Science and
Technology (OST) research, development, test, and evaluation process
by assisting in the identification of state and local criminal justice
agency technology needs and operational requirements; coordinating
testing, demonstration, and evaluation of new technologies emerging
from the OST Research and Development cycle to assist state and
local agencies with their purchasing decisions; and assisting in
capacity building and technology assistance to the public safety
community. The principal focus of WPSTC is supporting OST's
research, development, test, and evaluation Process by hosting those
Technical Working Groups (TWGs) associated with the Explosives,
Corrections, and Officer Safety and Protective Technologies (OSPT)
portfolios. WPSTC participates at conferences and exhibitions, and
manages activities in support of the research, development, test, and
evaluation process.

      The purpose of this audit was to determine whether
reimbursements claimed for costs under the cooperative agreement
were allowable, supported, and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the cooperative
agreement, and to determine program performance and
accomplishments. The objective of our audit was to review
performance in the following areas: (1) internal control environment;
(2) drawdowns; (3) cooperative agreement expenditures, including
personnel and indirect costs; (4) budget management and control;
(5) matching; (6) property management; (7) program income;
(8) financial and progress reports; (9) cooperative agreement
requirements; (10) program performance and accomplishments; and
(11) monitoring of subrecipients and contractors. We determined that
matching costs, property management, program income, and
monitoring of subrecipients were not applicable to this cooperative
agreement. As shown in Exhibit 1, the University of Denver was
awarded a total of $1,724,998 to implement the cooperative
agreement.

EXHIBIT 1.	 NLECTC PROGRAM COOPERATIVE AGREEMENT TO
            THE UNIVERSITY OF DENVER
     COOPERATIVE                               AWARD END
                             AWARD DATE                          AWARD AMOUNT
   AGREEMENT AWARD                               DATE
    2009-IJ-CX-K010           09/23/2009       09/30/2010          $ 1,550,000
      Supplement 1 2          09/16/2010       09/30/2011              174,998
                                                    Total:         $ 1,724,998
Source: OJP Grants Management System (GMS)

Background

      OJP’s mission is to increase public safety and improve the fair
administration of justice across America through innovative leadership
and programs. OJP seeks to accomplish its mission by disseminating
state-of-the-art knowledge and practices across America by providing
grants for the implementation of these crime fighting strategies. To
support this mission, the NIJ provides objective, independent
evidence-based knowledge and tools to meet the challenges of crime
and justice, particularly at the state and local levels.

       Within the NIJ, there are five operating offices; one of these
offices is the OST. The OST manages technology research and
development, development of technical standards, testing, and
technology assistance to state and local law enforcement and
corrections agencies. Through the OST, the NIJ (1) serves as the
national focal point for work on criminal justice technology and
(2) carries out programs that, by providing equipment, training and
technical assistance, improve the safety and effectiveness of criminal



       2
          We noted that as of September 20, 2010, no money had been drawn down
for Supplement 1; therefore, we did not include it in the scope of the audit. This
matter is discussed further in Appendix I of this report.

                                         2

justice technology as well as access to that technology by local, state,
tribal and federal enforcement agencies.

       Originally created in 1994 as a program of NIJ’s OST, the
National Law Enforcement and Corrections Technology
Center (NLECTC) System plays a critical role in enabling NIJ to carry
out its critical mission to assist state, local, tribal and federal law
enforcement, corrections and other criminal justice agencies in
addressing their technology needs and challenges.
The NLECTC System provides:

   •	   scientific and technical support to NIJ’s research, development,
        test, and evaluation projects;

   •	   support for the transfer and adoption of technology into practice
        by law enforcement and corrections agencies, courts and crime
        laboratories;

   •	   assistance in developing and disseminating equipment

        performance standards and technology guides;


   •	   assistance in the demonstration, testing, and evaluation of

        criminal justice tools and technologies;


   •	   technology information and general and specialized technology
        assistance; and

   •	   assistance in setting NIJ’s research agenda by convening
        practitioner-based advisory groups to help to identify criminal
        justice technology needs and gaps.

      According to the NLECTC, the system was reorganized in order
to better enable the system to carry out its mission to assist state,
major city and county, rural, tribal and border, as well as federal law
enforcement, corrections and other criminal justice agencies in
addressing their technology needs and challenges. Additionally, the
NLECTC System realigned its outreach efforts into three new centers
with the purpose of serving different demographic regions of the public
safety community: the States, Major Cities and Counties Regional
Center; the Small, Rural, Tribal and Border Regional Center; and the
Alaska Regional Center.

     The States, Major Cities and Counties Regional Center offers a
resource and outreach mechanism for state, major city and county

                                     3

criminal justice system partners, with a mission of ensuring that larger
criminal justice agencies (those having 50 or more sworn personnel)
have unbiased access to a full range of relevant scientific and
technology-related information. The Small, Rural, Tribal and Border
Regional Center publicizes its programs and services to small, rural,
tribal and border agencies across the country. The Alaska Regional
Center serves as a conduit for agencies in Alaska.

       The efforts of these outreach centers complement those of
NLECTC-National, which coordinates NIJ’s Compliance Testing program
and standards development efforts for a variety of equipment used in
the public safety arena, and the Centers of Excellence (COEs), which
support NIJ’s research, development, test, and evaluation efforts in
specific portfolio areas. The COEs focus on the following topic areas:
Communications Technologies, Electronic Crime Technology, Forensic
Science Technologies, Information and Sensor Systems Technologies,
and Weapons and Protective Systems Technologies. The National
Institute of Standards and Technology’s Office of Law Enforcement
Standards provides scientific and research support to these efforts. An
organizational chart of the NLECTC program is shown below:




            Source: NLECTC

     On September 20, 2007, the NIJ established WPSTC at
Pennsylvania State University (Penn State) as part of the NLECTC


                                   4

System. The University of Denver is a partner with Penn State in
facilitating WPSTC, and was originally funded under the Penn State
award. According to documentation from NIJ, Penn State continued to
be funded through that original award, and a decision was made in
2009 to fund the University of Denver under a separate agreement.
This was done to simplify award management and to eliminate the
administrative costs incurred by moving funds to the University of
Denver through Penn State.

      WPSTC provides testing, evaluation, specialized technology
assistance programs and other services with regard to tools and
technologies intended for use by law enforcement, corrections and
other criminal justice agencies and organizations. This program
furthers NIJ's mission by improving the safety and effectiveness of
criminal justice technology and the access of law enforcement and
other criminal justice agencies to that technology.

       WPSTC supports NIJ research, development, test, and evaluation
activities within the improvised explosive device defeat, less-lethal
devices, personal protective equipment, corrections, school safety and
pursuit management investment portfolios (and related areas) by:

  •	   assisting NIJ in identifying criminal justice technology

       requirements by coordinating and conducting technology

       working groups and conducting focused studies;


  •	   supporting NIJ research and development programs by assisting
       with program objective definition and refinement, assessing
       ongoing NIJ projects, scouting relevant technology efforts and
       participating in national and regional groups;

  •	   testing, evaluating and demonstrating technologies by
       conducting comparative laboratory and field testing, conducting
       and coordinating operational evaluations and conducting,
       facilitating and coordinating demonstrations with law
       enforcement and corrections agencies;

  •	   supporting the adoption of new technologies by introducing new
       technologies to practitioners, providing practitioner requirements
       to developers, assisting developers in commercialization and
       providing support to first adopter law enforcement agencies for
       effectiveness evaluation;




                                    5

   •	   coordinating and developing technology guidelines for planning,
        selecting and implementing technology solutions; and

   •	   providing technology assistance to criminal justice agencies
        across the country, including providing science and engineering
        advice and assisting first adopters with new tools and methods.

Our Audit Approach

      We tested compliance with what we consider to be the most
important conditions of the cooperative agreement. Unless otherwise
stated in our report, the criteria we audit against are contained in the
Office of Justice Programs Financial Guide and the award documents.
We tested the University of Denver’s:

   •	 internal control environment to determine whether the
      internal controls in place for the processing and payment of
      funds were adequate to safeguard cooperative agreement funds
      and ensure compliance with the terms and conditions of the
      cooperative agreement;

   •	 cooperative agreement drawdowns to determine whether
      cooperative agreement drawdowns were adequately supported
      and if the University of Denver was managing cooperative
      agreement receipts in accordance with federal requirements;

   •	 cooperative agreement budget management and controls
      to determine if cumulative expenditures were in the normal
      confines of the cooperative agreement budget.

   •	 cooperative agreement expenditures to determine the
      accuracy and allowability of costs charged to the cooperative
      agreement;

   •	 Federal Financial Reports and Progress Reports to
      determine if the required Federal Financial Reports and Progress
      Reports were submitted on time and accurately reflect
      cooperative agreement activity;

   •	 compliance with cooperative agreement requirements to
      verify if the University of Denver complied with additional
      requirements in accordance with the guidelines of the
      cooperative agreement award;


                                    6

  •	 cooperative agreement objectives and accomplishments to
     determine if the University of Denver met or is capable of
     meeting the cooperative agreements’ objectives; and

  •	 management of contractors to determine how the University
     of Denver administered pass through funds.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope,
and methodology are discussed in Appendix I.




                                 7

            FINDINGS AND RECOMMENDATIONS

      We determined that the University of Denver’s policies and
      procedures provided for segregation of duties, transaction
      traceability, and system security. We also found that the
      University of Denver was generally in compliance in the following
      areas: drawdowns, Federal Financial Reports (FFR), Progress
      Reports, and the monitoring of contractors. Additionally, we did
      not find any indication that the University of Denver is not on
      track to accomplish the goals and objectives of the cooperative
      agreement. However, during our review, we identified internal
      control weaknesses, which resulted in unallowable indirect costs
      and cooperative agreement expenditures totaling $1,134,
      compensation to unapproved personnel positions totaling
      $44,071, unsupported contractor payments totaling $33,000.
      Finally, we found the University of Denver did not competitively
      bid for 10 of the 11 contracts funded for the WPSTC program,
      these contractors’ compensation totaled $454,285, and that they
      utilized an unallowable contracting method for the remaining
      contractor, resulting in unallowable fees for service totaling
      $77,814.

Internal Control Environment

      We reviewed the University of Denver’s financial management
system, policies and procedures, Single Audit Reports, prior OIG
reports, and Site Visit Reports to assess the University of Denver’s risk
of non-compliance to laws, regulations, guidelines, and terms and
conditions of the cooperative agreement. We also interviewed
University of Denver officials regarding payroll, purchasing, and
accounts payable to further assess risk.

Single Audit

      According to OMB Circular A-133, non-federal entities that
expend $300,000 ($500,000 for fiscal years ending after December
31, 2003) or more in a year in federal awards shall have a single or
program-specific audit conducted for that year. According to the
schedule of federal expenditures in the single audit for year ended
June 30, 2009, expenditures of federal awards totaled $141,429,303.
Therefore, the University of Denver was required under OMB Circular
A-133 to have a single audit performed. We reviewed the FY 2009
Single Audit Report for the University of Denver and found the


                                    8

University of Denver complied, in all material respects, with the
requirements of its federal programs for the year ending June 30,
2009. There was one finding in the FY 2009 Single Audit Report;
however, this finding did not relate to the WPSTC program, any other
DOJ awards, or the DOJ as a whole.

Prior OIG Report

       We determined that the University of Denver was a part of a
prior DOJ OIG audit report that was released in March 2007. 3 In that
report, DOJ OIG auditors noted that there was an appearance of a
potential conflict of interest involving staff members at the
NLECTC - Rocky Mountain operation in the University of Denver.
Specifically, several employees ran independent businesses that
offered the same products and services that they were responsible for
evaluating and advising, in their role as NLECTC employees. In
addition, DOJ OIG auditors tested transactions including domestic
travel, foreign travel, contractor payments, and consultants’ fees.
During testing, DOJ OIG auditors questioned $18,480 in expenses, of
which $5,494 was unsupported and $12,986 was unallowable. The
unsupported costs included a $5,394 payment for hotel
accommodations for an official function, for which University of Denver
officials could not produce an invoice to support the payment. The
unallowable costs of $12,986 included $11,786 in consultants’ fees in
excess of the allowable rate, $630 in per diem in excess of allowable
rates for foreign travel, and $445 for a bus rental used for a
non-official function.

Site Visits

       NIJ officials explained that there were two site visits that related
to either the University of Denver, or to the WPSTC program (which
occurred at the partner agency, Penn State). We obtained the
information and results regarding these site visits.

      For the site visit pertaining to Penn State: No
programmatic or administrative problems requiring formal resolution
were identified during the site visit. NIJ officials stated that the
WPSTC program appears to be progressing according to the plan
presented in the approved application, and it is in compliance with NIJ
guidelines for this grant. NIJ officials also stated that the test and

         3
             This audit also encompassed NLECTC program activity for other NLECTC
sites.

                                            9

evaluation reports, guide books, requirements matrices, and technical
assistance that the center has provided over the past 3 years have
been outstanding.

       For the site visit pertaining to the University of Denver:
NIJ officials reviewed the financial progress of Denver University
during this visit and compared expenditure by budget category to the
efforts being undertaken. There were not any financial issues found.
Additionally, NIJ officials reviewed each of the four focus areas that
NLECTC-RM is responsible. According to the site visit report, NIJ
officials indicated that the efforts put forth and the financial
expenditures appear to be in line with each other. NIJ officials also
found that the progress reports in the OJP Grants Management
System (GMS) were uploaded incorrectly. However, the NIJ
determined that this was due to a GMS system error that occurs when
awards were extended. Overall, NIJ officials concluded that the
University of Denver instituted sound financial practices and had
sought out cost saving opportunities in order to more effectively utilize
the funding received.

       We obtained the University of Denver's response to the site visit,
which also included the resolution to the issue mentioned above. We
determined that the response adequately addressed the issue noted in
the site visit.

Financial Management System

       In order to assess financial management involving the WPSTC
program, we focused on the Office of Research and Sponsored
Programs (ORSP), who handle several financial matters involving the
University of Denver’s WPSTC Program. The ORSP, a sub-department
of the University of Denver Controller’s Office, supports the University
of Denver in their pursuit and management of externally sponsored
projects including research, instruction, and other activities. According
to the University of Denver website, the ORSP provides assistance with
locating funding opportunities, preparing budgets, interpreting
regulations and guidelines, complying with University and sponsoring
agency requirements, submitting and negotiating proposals, complying
with post-award administration, reporting financial activities, closing
out projects, and assisting with audits. Also listed on the website are
the financial operations that the ORSP provide, including:

   •	 insuring that all effort is properly accounted for and certified for
      awards;

                                    10

   •	 insuring that all award expenditures are reasonable, consistent
      and allowable;

   •	 processing all award cash receipts;

   •	 developing, submitting, and negotiating all indirect cost rates for
      the University of Denver;

   •	 calculating and distributing indirect cost flow back to

      departments;


   •	 conducting the University of Denver’s space surveys and

      maintaining the property databases;


   •	 submitting all internal and external reports related to University
      of Denver sponsored program activities, including government
      surveys; and

   •	 serving as the audit liaison for government and independent
      auditors.

       ORSP officials stated that they have been using a commercial
accounting and financial management system since 2000. Specifically,
they utilize the Grants Module and the billing components of the
system. ORSP officials informed us that they keep a separate file for
each award, and assign a unique fund number to each award. Every
transaction entered into the system is tied to the unique fund number
for each award. Depending on how much money comes to the
University of Denver, they also can track each award fund by fiscal
year. ORSP officials also stated that awards are kept active until
closeout, and that the documentation is readily available at the ORSP
until the award closes and then the documentation is archived.

       Based on our review of the ORSP’s policies and procedures and
interviews with ORSP personnel, we determined that the ORSP’s
policies and procedures provided for segregation of duties, transaction
traceability, and system security. However, during our audit we
identified several weaknesses in the University of Denver’s policies and
procedures, which resulted in: unallowable indirect costs and
cooperative agreement expenditures, compensation to unapproved
personnel positions, unsupported contractor payments, the
engagement in improperly awarded contracts, and the utilization of an


                                   11

unallowable contracting method. These discrepancies are outlined in
more detail in the remainder of this report.

Drawdowns

       ORSP officials stated that drawdowns are based on
reimbursements of actual expenditures from the accounting records.
Drawdowns are deposited electronically into the University of Denver’s
approved financial institution, and once a deposit comes in, the
amount is verified and placed into the correct fund account in the
accounting system. ORSP officials perform monthly reconciliations to
ensure that each fund account is being properly reimbursed. We
verified that the drawdown amounts per OJP records matched the
amount listed in the wire transfer documents obtained from ORSP
officials. Consequently, we noted no discrepancies and determined
that the drawdowns were properly deposited.

       According to the OJP Financial Guide, award recipient
organizations should request funds based upon immediate
disbursement/reimbursement requirements. Recipients should time
their drawdown requests to ensure that Federal cash on hand is the
minimum needed for reimbursements to be made immediately, or
within 10 days. As shown in Exhibit 2, we reviewed the accounting
records and compared drawdowns to the actual expenditures and
found that drawdowns were cumulatively less than the actual
expenditures per accounting records. As such, we find no
discrepancies in regards to the University of Denver’s drawdowns for
Cooperative Agreement No. 2009-IJ-CX-K010.




                                  12

EXHIBIT 2. DRAWDOWNS VERSUS ACCOUNTING RECORDS 4
                                                                        CUMULATIVE
                                                                         DIFFERENCE
                                                                          BETWEEN
                                                       CUMULATIVE      AMOUNT DRAWN
     DATE OF         AMOUNT         CUMULATIVE        EXPENDITURES      PER OJP AND
  DRAWDOWN PER      DRAWN PER       DRAWDOWNS        PER ACCOUNTING     ACCOUNTING
      OJP              OJP           PER OJP             RECORDS          RECORDS

   12/10/2009            $ 29,610      $    29,610       $    30,311        $     702

   01/12/2010             73,722           103,332           110,011             6,679

   02/16/2010            192,181           295,513           331,155            35,642

   03/24/2010            168,699           464,212           592,732        128,519

   04/12/2010            202,983           667,195           674,430             7,235

   05/11/2010            140,014           807,209           932,741        125,532

   06/09/2010            175,665           982,874        1,018,471             35,597

   07/09/2010             61,286        1,044,160         1,180,766         136,605

   08/12/2010            163,346        1,207,506         1,235,903             28,397

   09/10/2010             71,391        1,278,897         1,318,787             39,890
Source: Office of Justice Programs and the University of Denver

Budget Management and Control

      According to the OJP Financial Guide, movement of dollars
between approved budget categories without a Grant Adjustment
Notice (GAN) is allowable up to ten percent of the total award amount
for awards greater than $100,000. As noted in Exhibit 1, the
University of Denver received one award for $1,550,000. We
compared the approved budgets for this award to the actual
expenditures as shown in the University of Denver’s accounting
system. As shown in Exhibit 3, we determined that cooperative
agreement expenditures exceeded the approved cooperative
agreement budget in two budget categories. However, we noted that
the excess expenditures in these budget categories did not
cumulatively exceed the ten percent threshold; therefore, we do not
take exception to this occurrence.




       4
        Differences in total amounts are due to rounding. The sum of individual 

numbers prior to rounding may differ from the sum of the individual numbers rounded.


                                        13

EXHIBIT 3. BUDGET MANAGEMENT AND CONTROL

                           COOPERATIVE AGREEMENT
      COST CATEGORY               BUDGET                  ACTUAL COSTS

             Personnel             $226,222                   $142,049

        Fringe Benefits              54,972                     33,308

                 Travel              40,000                     39,944

            Equipment                      0                         0

              Supplies               18,660                     36,243

          Construction                     0                         0

           Contractual              991,784                    888,756

                 Other               65,000                     71,271

     TOTAL DIRECT COSTS           1,396,638                  1,211,570

         Indirect Costs             153,362                    107,217

      TOTAL COSTS               $1,550,000                 $1,318,787
Source: OJP Grants Management System (GMS) and the University of Denver

Cooperative Agreement Expenditures

      We reviewed the general ledger account designated for
cooperative agreement funds and selected a judgmental sample of
77 transactions, totaling $881,813. Specifically, during our testing, we
found the following:

Direct Costs – Unallowable Transactions

       According to the 2009 OJP Financial Guide, the cost of normal
repairs and maintenance are allowable to the extent they are not
otherwise included in rental or other charges for a space. However,
we found one expenditure charged to Cooperative Agreement
No. 2009-IJ-CX-K010 for damage to facilities during an International
Bomb Squad Commanders conference at the Cherry Creek State Park,
totaling $900. According to documentation provided by University of
Denver officials, a fire pit burned too hot and melted the sealant on
the deck at the marina. In our judgment, the fee for property damage
done at the marina does not qualify as a normal repair or maintenance
fee. Therefore, we determined that this transaction should be
questioned as unallowable. Details regarding these costs can be found
in Appendix III.



                                     14

Direct Costs – Unsupported Contractor Transactions

       According to OMB Circular A-21, the recipient institution is
responsible for ensuring that costs charged to a sponsored agreement
are allowable, allocable, and reasonable. Also, according to the OJP
Financial Guide, direct recipients should ensure that monitoring of
organizations under contract to them is performed in a manner that
will ensure compliance with their overall financial management
requirements. Further, the OJP Financial Guide states that all financial
records, supporting documents, statistical records, and all other
records pertinent to the award shall be retained for at least three
years following notification that the grant has been closed or at least
three years following the closure of its audit report covering the entire
award period, whichever is later.

      During our evaluation of the University of Denver’s monitoring of
contractors and review of the supporting documentation obtained
during transaction testing, we were unable to verify the work product
for one contractor. According to this contractor’s Statement of Work,
the responsibilities for this contractor included: (1) on-site
representation at various meetings, events and functions which
warrant a representative in an outreach capacity; (2) provide meeting
support and logistics for various NLECTC and/or NIJ sanctioned
events; (3) provide technical assistance to state and local law
enforcement or corrections agencies as directed by NLECTC program
managers; (4) attend staff meetings as requested; and (5) provide
regular reports to the WPSTC director concerning activities conducted
on behalf of the NLECTC. During our testing, we were provided with
meeting notes and agendas that place the contractor at meetings and
other events. However, we were unable to verify any other work
product as outlined in the Statement of Work included in their
contract.

      Since we were unable to obtain any other documentation or
work product specifically from this contractor, we expanded our
transaction testing to include all compensation paid to this contractor.
We followed up with WPSTC officials who informed us that they did not
have any additional work product, timesheets or other documentation
associated with the services that this contractor provided under
Cooperative Agreement No. 2009-IJ-CX-K010. As a result, we
question $33,000 in compensation awarded to this contractor under
Cooperative Agreement No. 2009-IJ-CX-K010. Details regarding these
costs can be found in Appendix IV. To ensure that costs are not
doubled counted; compensation to this contractor is included in our

                                   15

questioned costs calculation under compliance with Special Condition
24. This matter is further discussed in the Compliance with
Cooperative Agreements Requirements of this report.

Direct Costs – Separation of Funds

      According to the OJP Financial Guide, funds specifically budgeted
and/or received for one project may not be used to support another.
Where a recipient’s or subrecipient’s accounting system cannot comply
with this requirement, the recipient or subrecipient shall establish a
system to provide adequate fund accountability for each project it has
been awarded. Also, according to OMB Circular A-21, if a cost benefits
two or more projects or activities in proportions that can be
determined without undue effort or cost, the cost should be allocated
to the projects based on the proportional benefit. If a cost benefits
two or more projects or activities in proportions that cannot be
determined because of the interrelationship of the work involved, then,
the costs may be allocated or transferred to benefited projects on any
reasonable basis.

      During our review of the supporting documentation obtained
from transaction testing, we reviewed invoices from the contractor
responsible for travel arrangements. According to this contractor’s
website, as meeting architects, they provide knowledge, partnerships
and strategic planning to the meetings and events community by
designing and executing meetings for their clients. The University of
Denver entered into a contract with this contractor to assist the
NLECTC with hotel and travel management and individual expense
reimbursement for events and meetings, as well as financial
management and reporting of events and meetings. 5

      While reviewing the invoices, from the contractor responsible for
travel arrangements, which were subsequently charged to Cooperative
Agreement No. 2009-IJ-CX-K010, we identified several line items that
were not labeled with the proper account fund code designated for the
WPSTC program. The improperly labeled code signifies the Regional
Outreach Center (ROC) Program, which WPSTC officials explained is an
NLECTC subaward from Lockheed Martin to help support the States,
Major Cities and Counties Regional Outreach Center.



       5
        The University for Denver utilizes the services provided by this contractor for
the NLECTC as a whole, and not specifically for the WPTSC program.

                                         16

       We followed up with the WPSTC officials about the improper
account fund codes in the travel contractor’s invoices, and were
informed that when a WPSTC program manager, which is a
supervisory position within the University of Denver’s WPSTC program,
submits a Group Travel Request to this contractor, the WPSTC
program manager must assign a program, like the WPSTC or ROC
program, to the event. Furthermore, WPSTC officials stated that due
to the overlapping missions of the WPSTC and the ROC, it can be
difficult to draw a line on exactly which program should be charged for
various travel. Some activities were outreach activities for the WPSTC
program, and other activities were outreach to inform of the WPSTC
program. We were also informed that the travel costs for outreach
events are either all charged to WPSTC, or to the ROC program, and
they do not allocate costs for an event between the two funding
sources.

      From our review of the invoices from this contractor and our
discussions with WPSTC officials, we concluded that the University of
Denver is utilizing Cooperative Agreement No. 2009-IJ-CX-K010 funds
to support non-award related activities for the ROC program. For this
reason, we are questioning $9,038 in travel costs that were labeled as
a ROC event and were subsequently charged to Cooperative
Agreement No. 2009-IJ-CX-K010. Also, we recommend that the
University of Denver implement policies and procedures to determine
what activities should constitute as WPSTC activities, what activities
should be classified as ROC activities, and how funds should be
allocated when it meets criteria for both programs.

       With exception to the occurrences noted above, we found that
the transactions reviewed were generally properly authorized,
classified, supported, and charged to the cooperative agreement.
Details regarding the costs questioned mentioned above can be found
in Appendix V.

Personnel Costs

       According to the budget for Cooperative Agreement
No. 2009-IJ-CX-K010, the University of Denver was approved
$266,222 in personnel costs and $54,972 in fringe benefits. We
reviewed supporting documentation for two non-consecutive pay
periods of personnel and fringe benefit costs charged to the
cooperative agreement to determine: (1) if the positions appeared
reasonable with the stated intent of the program, (2) whether their
salaries were within a reasonable range, and (3) if the positions were

                                  17

consistent with cooperative agreement budgets.

      During our review, we obtained a list of employees paid using
cooperative agreement funds from University of Denver officials, which
included salary amounts charged to the cooperative agreement. We
compared this list to the approved positions in the cooperative
agreement budgets and found two positions that were not included in
the NIJ-approved budget, a Public Information Officer and a Student
Intern Position.

      WPSTC officials stated that they have stayed within the approved
budget regarding the amount that could be spent on personnel.
However, since the positions noted above were not included in the
NIJ-approved budget, we are questioning $44,071 in salaries, fringe
benefits, and indirect costs associated with the two positions as
unallowable. Details regarding these costs can be found in
Appendix VI.

Indirect Costs

       According to the budget for Cooperative Agreement
No. 2009-IJ-CX-K010, the University of Denver was allotted $153,362
in indirect costs. An ORSP official stated that since all WPSTC offices
are off campus, they were able to obtain an approved indirect cost rate
of 26 percent, which is the federally approved indirect cost rate for a
university’s off-site organized research. We reviewed documentation
supporting the indirect cost rate calculation for NLECTC activities
involving the University of Denver. First, we calculated the total
indirect costs from the cooperative agreement accounting records to
determine if indirect costs had exceeded what was allowed in the
cooperative agreement budget. We determined that the basis for
calculating the indirect cost rate included the salaries, fringe benefits,
supplies, travel and contractor budget categories, which totaled
$589,854. 6 Then, using the approved 26 percent indirect cost rate, we
calculated that budgeted indirect costs should be $153,362. After
comparing our calculation of indirect costs to the amount allowed in
the budget, we determined that the basis used to calculate the indirect
costs is identical to the amount used in the NIJ-approved budget.
Also, as shown in Exhibit 3, we found that the indirect costs charged to
Cooperative Agreement No. 2009-IJ-CX-K010 totaled $107,217.

       6
         University of Denver officials included in the grant documentation that the
amounts included in the calculation for the indirect costs involving contractors were
cumulative expenses up to $25,000.

                                        18

Therefore, we determined that the total indirect costs did not exceed
the amount allowed in the cooperative agreement budget.

       We also selected a judgmental sample of 15 indirect costs,
totaling $29,472, to determine whether the expenses that triggered
the indirect costs were allowable under the cooperative agreement. As
previously discussed, we found one discrepancy involving a transaction
for damage to facilities during an International Bomb Squad
Commanders conference at the Cherry Creek State Park, totaling
$900. According to the 2009 OJP Financial Guide, the cost of normal
repairs and maintenance are allowable to the extent they are not
otherwise included in rental or other charges for a space. In our
judgment, the fee for property damage done at the marina does not
qualify as a normal repair or maintenance fee. We determined that
this expenditure is unallowable and therefore, the indirect cost
prompted by this expenditure, totaling $234, is also unallowable. With
exception to the transaction noted above, we found that the
transactions reviewed were generally properly authorized, classified,
supported, calculated and charged to the cooperative agreement.
Details regarding the questioned cost mentioned above can be found
in Appendix III.

Reports

      We reviewed the FFRs, and Categorical Assistance Progress
Reports (Progress Reports), and found that FFRs were submitted in a
timely manner and cumulatively accurate. We also determined that
the Progress Reports were submitted accurately and generally in a
timely manner.

Financial Reports

       The OJP Financial Guide states that effective for the quarter
beginning October 1, 2009, instead of using Financial Status
Reports (FSRs), award recipients must report expenditures online
using the Federal Financial Report (FFR) Form no later than 30 days
after the end of each calendar quarter. We reviewed the last four FFRs
submitted (as of the date of our fieldwork) and, as shown in Exhibit 4
below, we determined that, FFRs were submitted in a timely manner.




                                  19

EXHIBIT 4. FEDERAL FINANCIAL REPORT HISTORY

  REPORT         REPORT PERIOD
   NO.          FROM - TO DATES        DUE DATES         DATE SUBMITTED    DAYS LATE
     1      10/01/2009 - 12/31/2009    1/30/2010           1/11/2010          0
     2      01/01/2010 - 03/31/2010    4/30/2010            4/9/2010          0
     3      04/01/2010 - 06/30/2010    7/30/2010            7/9/2010          0
     4      07/01/2010 - 09/30/2010    10/31/2010          10/15/2010         0
Source: OJP Grants Management System (GMS)

      According to the OJP Financial Guide, recipients shall report the
actual expenditures and unliquidated obligations incurred for the
reporting period on each FFR. As such, we reviewed the last four
submitted FFRs (as of the date of our fieldwork) for accuracy to the
cooperative agreement accounting records.

EXHIBIT 5. FEDERAL FINANCIAL REPORT ACCURACY
                                                           CUMULATIVE
                                                          COOPERATIVE     CUMULATIVE
                                        CUMULATIVE         AGREEMENT      DIFFERENCE
                                       COOPERATIVE        EXPENDITURES      BETWEEN
                                        AGREEMENT             PER          REPORTS &
  REPORT         REPORT PERIOD         EXPENDITURES        ACCOUNTING     ACCOUNTING
   N O.         FROM - TO DATES         PER REPORT          RECORDS         RECORDS
    1        10/01/2009 - 12/31/2009         $ 103,332       $ 103,332       $         0
    2        01/01/2010 - 03/31/2010           667,195         667,195                 0
    3        04/01/2010 - 06/30/2010         1,044,160        1,179,972          135,812
    4        07/01/2010 - 09/30/2010         1,405,602        1,405,602                0

Source: OJP Grants Management System (GMS) and the University of Denver

       As shown in Exhibit 5, we identified that the third FSR
underreported actual expenditures by $135,812. An ORSP official
explained that they use a 13-period accounting system, with 2 June
accounting periods. At the beginning of July the first June accounting
period closes and everything posted as of June 30th will be billed. The
expenditures as of the first June close were reported on the third FRR.
After this time, additional transactions are posted for the second June
accounting period during the month of July. The expenditures that
make up the second June accounting period are billed with July's
transactions at the beginning of August, and make up the identified
discrepancy. Based on our discussion with ORSP officials, we
determined that the amount would be cumulatively corrected in the
subsequent FFR. After reviewing the fourth FFR, we determined that
the difference noted above was cumulatively corrected and that there
was no cumulative difference between expenditures per FFRs and the
accounting records. Therefore, we do not take issue with this


                                       20

occurrence and we determined that the four FFRs reviewed were
cumulatively accurate.

Categorical Assistance Progress Reports

       According to the OJP Financial Guide, Categorical Assistance
Progress Reports are due semiannually on January 30 and July 30 for
the life of the award.

EXHIBIT 6.	 CATEGORICAL ASSISTANCE PROGRESS REPORT
            HISTORY
  REPORT         REPORT PERIOD
   NO.          FROM - TO DATES        DUE DATE    DATE SUBMITTED   DAYS LATE
    1       10/01/2009 - 12/31/2009    1/31/2010     3/22/2010         50
    2       01/01/2010 - 06/30/2010    7/31/2010     7/27/2010         0
Source: OJP Grants Management System (GMS

       As shown in Exhibit 6, we determined that first Progress Report
was submitted 50 days late. A WPSTC official informed us that there
was some confusion about when Progress Reports were due. They
were unsure whether the report was due six months after the start of
the cooperative agreement, the cooperative agreement started on
September 23, 2009), or if they were due in January and July. We
also identified that Progress Report Two was submitted in a timely
manner. Since University of Denver officials are now aware that
Progress Reports are due semiannually on January 30 and July 30 and
submitted the second Progress Report in a timely fashion, we do not
take issue with this occurrence.

       According to the OJP Financial Guide, the funding recipient
agrees to collect data appropriate for facilitating reporting
requirements established by Public Law 103-62 for the Government
Performance and Results Act. The funding recipient will ensure that
valid and auditable source documentation is available to support all
data collected for each performance measure specified in the program
solicitation.

      While reviewing the submitted progress reports, we identified
that Progress Report submitted for the period January 1, 2010,
through June 30, 2010, was cumulative for the entire project period
and covered performance measures from October 2009 to June 2010.
Therefore, we evaluated the accuracy of this Progress Report. We
highlighted various TWG events, STC meetings, technical assistance
services provided, and other measures listed in the progress report

                                      21

and provided this to WPSTC officials in order to obtain supporting
documentation to verify each measure. After reviewing the materials
and documentation provided, we determined that the items we
selected for verification were completed and accurately reported.

Compliance with Cooperative Agreement Requirements

      We reviewed the award documents for Cooperative Agreement
No. 2009-IJ-CX-K010 to determine whether there were any special
conditions the University of Denver was required to satisfy under the
terms and conditions of the award. In order to verify that these
additional requirements were complied with in accordance with the
guidelines of the cooperative agreement award, we obtained
documentation and interviewed University of Denver officials.

Special Condition 7 – Reporting Events

      Special Condition 7 of the award package states that "within
45 days after the end of any conference, meeting, retreat, seminar,
symposium, training activity, or similar event funded under this award,
and the total cost of which exceeds $20,000 in award funds, the
recipient must provide NIJ officials with a schedule of itemized costs
that are to be paid or reimbursed using cooperative funds."

      In order to determine a reasonable approximation of total
expenditures for each meeting/event charged to the cooperative
agreement, we utilized the travel contractor’s invoices and summed up
the expenditures listed for each meeting to reasonably identify
whether WPSTC events crossed the $20,000 threshold for Special
Condition 7. Using this methodology, we identified six events that
were approximately $20,000 or greater; and are therefore, subject to
Special Condition 7 of the award package. 7

     We reviewed the GMS’s Conference Cost Quarterly Report
Module and determined that the University of Denver had submitted
seven itemized schedules of event costs. We compared the seven
submitted schedules of event costs to the six events we identified, and
found that the University of Denver had submitted schedules for all six

       7
          One of the events we had identified had total costs, from travel costs and
fees from the travel contractor, totaling $19,762. We determined since this total did
not include any costs from University of Denver employees (whom submit travel costs
through the University of Denver), that this event was appropriate to include in our
analysis. The other events that we identified exceeded the $20,000 threshold.

                                         22

of the events we identified and one additional event. Therefore, based
on the documentation provided, it appears that the University of
Denver is in compliance with Special Condition 7.

Special Condition 24 – Procurement and Bidding Processes

      According to Special Condition 24 of the award package, "any
contracts under this award should be made in accordance with the
procurement standards set out in applicable regulations and the
current edition of the OJP Financial Guide. All sole-source
procurements in excess of $100,000 must receive prior approval from
the awarding agency."

      During an interview, WPSTC officials indicated that they follow
the University of Denver's policies and procedures for procuring
contractors. While reviewing the purchasing policies and procedures,
we identified exemptions to the competitive bidding process.
Specifically, professional services are exempt from the competitive
bidding process for the University of Denver. Additionally, "the
cognizant department manager or principal investigator should submit
a written, clear, but concise statement that justifies waiving the
competitive bidding process."

       The OJP Financial Guide states that "recipients and sub recipients
shall use their own procurement procedures and regulations, provided
that the procurement conforms to applicable Federal law and
the standards identified in the Procurement Standards Sections of 28
CFR Parts 66 and 70." According to the procurement standards listed
in 28 CFR Part 70, "all procurement transactions must be conducted in
a manner to provide, to the maximum extent practical, open and free
competition."

       It appears that the University of Denver's rules for exemption
from the competitive bidding practice do not conform to the standards
set forth in the OJP Financial Guide and in 28 CFR Part 70. Therefore,
the University of Denver must follow the procurement guidelines set
forth in the OJP Financial Guide and 28 CFR Part 70 rather than their
own policies and procedures for procurement transactions funded by
federal money. As such, procurement transactions under the
cooperative agreement should have been conducted in a manner to
provide, to the maximum extent practical, open and free competition,
regardless of the dollar amount.




                                   23

      We followed up with a WPSTC official regarding the competitive
bidding process for the contractors funded under this cooperative
agreement. We were informed that the contract involving the travel
contractor was the only one competitively bid. The remaining 10
contractors were not competitively bid because they viewed them to
be professional services, and as such exempt from the competitive
bidding process under the University of Denver's policies and
procedures. We were also informed that a written statement to justify
waiving the competitive bidding process for each of the ten contracts
does not exist. This WPSTC official also stated that the NIJ directed
the University of Denver to enter into a contract with another
contractor.

      When we spoke with NIJ officials regarding this matter, they
explained that the NIJ shares support for the National Bomb Squad
Commanders Advisory Board (NBSCAB) with the Department of
Defense (DOD) and the Department of Homeland Security. In
particular, this contractor helps support the NBSCAB by working to
develop the National Strategic Plan for United States Bomb Squads.
NIJ officials indicated that this contractor is under contract with the
DOD, and that several years ago, the NIJ sent money to the DOD for a
portion of their salary. Rather than going through the DOD, the NIJ
instructed the University of Denver to enter into a contract with this
contractor in order to save nine percent in pass-through costs. Even
though we obtained verbal confirmation of the NIJ’s instruction to the
University of Denver regarding this contractor, we requested and were
not provided any documentation to support this exemption from
Special Condition 24, and in particular 28 CFR Part 70, competitive
bidding. Therefore, we are unable to conclude that the contracts
between the University of Denver and this contractor are exempt from
Special Condition 24.

      As previously mentioned, a WPSTC official stated that the only
contract competitively bid was for the contractor responsible for travel
arrangements. After reviewing the documentation provided for the
competitive bidding process for this contract, we identified that three
companies declined to bid because the project was either too large, or
because they were not set up to handle the functions desired by the
program.

      A WPSTC official stated that the Request for Proposal (RFP) for
the travel contractor’s contract was not specifically for the WPSTC
cooperative agreement. Rather, it was for the NLECTC program as a
whole, and services were to begin before the WPSTC cooperative

                                   24

agreement was even awarded. We were also informed that after they
sent out the RFP and obtained no responses, other than the bid from
the travel contractor, a WPSTC official followed up with three
companies by telephone. They believe that since the services they are
requesting are for a niche in the travel management arena, many
companies do not have the capabilities to handle the project. For this
reasoning, they were unable to procure another company to manage
the program’s travel needs. Since the travel contractor’s contract was
procured by the University of Denver prior to the WPSTC cooperative
agreement, we do not take exception with the competitive bidding
process for this contract.

      During our review of the contracts, we determined that the
University of Denver did not uphold the guidelines set forth in the OJP
Financial Guide, and in particular the Procurement Standards outlined
in 28 CFR Part 70. Therefore, the University of Denver is not in
compliance with Special Condition 24, and we are questioning 10 of
the 11 contracts funded under this cooperative agreement because
they were not competitively bid. Payments to these contractors
funded by the cooperative agreement total $454,285. Details
regarding payments to these contractors can be found in Appendix VII.

Special Condition 24 – Contracting Methods

      During our review of the University of Denver’s compliance with
Special Condition 24, we also identified that the method of contracting
used for the travel contractor’s contract is unallowable under Special
Condition 24, specifically 28 CFR Part 70. According to the
Procurement Standards listed in 28 CFR Part 70, "the type of procuring
instrument used may be determined by the recipient and must be
appropriate for the particular procurement and for promoting the best
interest of the program or project involved. The
'cost-plus-a-percentage-of-cost' or 'percentage of construction cost'
methods of contracting must not be used."

       While reviewing the travel contractor’s contract, we identified
that the Statement of Work outlines the services that they must
provide. In particular, it states that this contractor will be reimbursed
for airfare, travel, lodging, and meals, and that their payment for
service fee is equal to "22 percent of the overall total expenditures"
incurred. Therefore, it appears that the contract method utilized for
the contractor responsible for travel arrangements is
'cost-plus-a-percentage-of-cost'. This contracting method is strictly
unallowable under 28 CFR Part 70, and therefore, unallowable under

                                   25

Special Condition 24. The use of a 'cost-plus-a-percentage-of-cost'
potentially incentivizes the contractor to inflate costs in order to obtain
a higher fee for services, a practice that is not in the best interest of
the program. Therefore, we are questioning the entire fee for services
for the travel contractor, which totals $77,814. Details regarding
these fees can be found in Appendix VIII.

Program Performance and Accomplishments

       As mentioned previously, the principal focus of WPSTC is to
support the OST's research, development, test, and evaluation Process
by hosting those TWGs associated with the Explosives, Corrections,
and Officer Safety and Protective Technologies (OSPT) 8 portfolios.
WPSTC will also participate at conferences/exhibitions and manage
activities in support of the research, development, test, and evaluation
process. The University of Denver applied for funding to support
WPSTC, and to contribute to the following deliverables:

   1. Administer and support the Explosives, OSPT, Institutional
      Corrections and Community Corrections TWG. Each TWG will
      meet twice during the performance period to articulate
      technology requirements and review all NIJ and Office of Science
      and Technology (OST) projects for their respective areas.

   2. Provide technical support to NIJ's research and development
      programs, specifically:

           •	   Explosives Program: support the National Bomb Squad
                Commander Advisory Board (NBSCAB); provide support to
                L-3 in cooperation with the FBI and Technical Support
                Working Group (TSWG); host an international bomb squad
                commander's workshop; continue to evaluate protection
                afforded by riot shields from suicide bombers; and
                continue to provide IT support to the NBSCAB website.

           •	   OSPT: support update of handcuff standard; support the
                development of a retention holster standard; and support
                the development of new standards as defined by the OSPT
                TWG and NIJ.



       8
          A WPSTC official explained that the OSPT portfolio was originally called the
Personal Protective Equipment (PPE) focus area.

                                         26

        •	   Corrections Program: manage the Electronic Monitoring
             Resource Center (EMRC); manage a community
             corrections technology demonstration and evaluation test
             bed; support the development of a new standard from
             electronic monitoring equipment; support the development
             of new standards as may be defined by the Community
             and/or Institutional TWGs and NIJ.

  3. Provide support to criminal justice agencies that request
     technical assistance for the Explosive Program, the OSPT
     Program, and the Corrections Program. The University of
     Denver will coordinate with other NIJ centers and resources to
     provide the requested technical assistance.

        •	   Technical assistance will primarily consist of providing
             information, data, and subject matter expertise. It may
             also include the coordination of technology
             demonstrations, technology research and technology
             transfer.

  4. The University of Denver staff will participate in conferences in
     order to keep abreast of technology issues and share information
     with criminal justice community WPSTC.

      While evaluating the accuracy of Progress Reports, WPSTC
personnel provided OIG auditors with supporting documentation for
events and activities performed under the cooperative agreement. We
found that WPSTC personnel performed activities including meetings
for TWGs for Corrections, OSPT, and Explosives. We also found that
WPSTC officials provided technical assistance for the following
agencies:




                                   27

              NAME OF AGENCY                                TOPIC
   California Department of Corrections       Circumvention vulnerabilities of
             and Rehabilitation                   offender tracing systems
   Quebec and Nova Scotia Ministries of     The use of GPS for domestic violence
                   Justice                                  cases
     Strafford County Department of         Wind turbines in correctional facilities
       Corrections (New Hampshire)
   Monroe County Probation (New York)                     Field Search
       Pennsylvania Juvenile Justice               Cell phone blocking issues
        New Mexico Department of                   Alternative DUI sanctions
               Transportation
          San Francisco Probation               Effects of auto window glazing on
                                                         GPS technology
   Colorado Department of Corrections                Stun Fence Technology
   California Department of Corrections          Sources of Field Search training
    Police Service of Northern Ireland           Sources of Field Search training
  Source: University of Denver WPSTC

      A WPSTC official explained that one of the purposes of the
WPSTC is to contribute in writing, evaluating, and testing new
standards at the discretion of the NIJ. To this end, NIJ funded two
Special Technical Committees (STCs) under the OSPT program in order
to develop the standards for holsters and restraints. The work of the
STC meetings is relayed to the TWGs for their feedback and input.
According to the last meeting minutes of the OSPT STCs, (June 1,
2009, through June 3, 2009), plans were made for the NIJ review
process to begin on the draft version of the holsters and restraints
testing standards. During our review of the progress reports, we also
noted that there were several meetings for a Corrections Program STC
regarding the development of testing standards for offender tracking.

      A WPSTC official stated that overall; they believe that they have
met, over and above, the stated goals and objectives of this
cooperative agreement. WPSTC officials also stated that they believe
that the program is currently on track to accomplish the goals and
objectives of the cooperative agreement. Based on interviews of
WPSTC officials and the information obtained during our review of the
Progress Reports, we did not find any indication that the University of
Denver WPSTC program is not on track to accomplish the goals and
objectives of the cooperative agreement.

Monitoring Contractors

      According to the 2009 OJP Financial Guide, direct recipients
should be familiar with, and periodically monitor, their subrecipients’

                                          28

financial operations, records, systems, and procedures. Particular
attention should be directed to the maintenance of current financial
data. Also, recipients must ensure that subrecipients have met the
necessary audit requirements contained in the OJP Financial Guide.
Recipients are also responsible for ensuring that subrecipient audit
reports are received and for resolving any audit findings. Known or
suspected violations of any law encountered during audits, including
fraud, theft, embezzlement, forgery, or other serious irregularities,
must be communicated to the recipient. For subrecipients who are not
required to have an audit as stipulated in OMB Circular A-133, the
recipient is still responsible for monitoring the subrecipients’ activities
to provide reasonable assurance that the subrecipient administered
Federal awards in compliance with Federal requirements.

       ORSP officials stated that they are consistent with A-133
regarding subrecipient monitoring. A letter is sent to contractors to
see if they are applicable for A-133. If the contractor is subject to
A-133, ORSP officials will review the documentation for discrepancies.
Once the annual audit is reviewed, ORSP officials make an assessment
to see if the findings impact the contractor’s internal controls and
ability to administer the cooperative agreement properly. If the entity
is not subject to A-133, ORSP officials check the Excluded Parties List
System (EPLS) to ensure that they are not debarred or otherwise
excluded from receiving federal funds. ORSP officials search EPLS
using the potential contractor’s name, DUNs number, and location of
the entity. Also, W-9 forms are obtained from the subrecipient prior to
setting up the contracts. Before an award is made, ORSP officials also
go through a risk list before entering into a contract. We were also
informed that the monitoring of contractors’ internal controls is done
at the program level after an award is made.

       ORSP officials explained that the evaluation of the contractor’s
processes and procedures for administering the contract occurs when
the contractors submit invoices. ORSP officials first check that the
Principal Investigator or other signing authority has approved the
invoice. Then, they verify that the work provided is within the time
period and in line with the Statement of Work from their contract.
Once an appropriate WPSTC official signs, dates, and approves the
invoice for payment, the invoice is sent to the purchase department
for disbursement and the transaction is moved to accounts payable
within the Accounting system.

     WPSTC officials informed us that the Program Director and the
program managers of the WPSTC program assess the performance of

                                    29

the contractors almost daily, with the exception of the travel
contractor’s assessment done monthly. Each WPSTC program
manager is responsible for the oversight of the contractors within their
program area. Since the Statement of Work included in the contracts
dictates the work to be performed by each contractor, WPSTC officials
feel that it is easy for them to measure contractor performance. It is
important to note, that even though this assessment is done
continually, no documentation is maintained in regards to the
monitoring of contractors by the University of Denver.

      WPSTC personnel participate in the oversight of the travel
contractor, and every month the travel contractor invoices the
program for the travel expenses incurred during the month. This
invoice shows the airfare, hotel charges, and the expenses charged to
WPSTC for each event. Once an invoice is received, a WPSTC
employee and the WPSTC program managers verify the invoice and
the associated expenses for each event to verify that the individuals
attended and that the expenditures are allowable.

      From the explanations and documentation we were provided, it
appears that generally the program is sufficient at monitoring their
contractors. During our transaction testing, we verified the work
product and other such documentation to support the various
transactions. From this review, we identified that most contractors
provided detailed invoices and timesheets, monthly status reports, or
other forms of documentation to support the services rendered.
However, one contractor did not submit a timesheet, detailed invoice,
or another form of documentation to support work performed and
services rendered under the program. 9 In the future, management
should require that all contractors provide documentation of their
services rendered in order to be compensated for that period. This
would provide an easier way for WPSTC program managers to approve
payment, and allow for an audit trail.




       9
         As mentioned on page 15 of the report, this contractor’s compensation was
questioned due to a lack of additional work product, timesheets or other
documentation associated with the services that this contractor has provided under the
cooperative agreement.

                                         30

Recommendations

    We recommend that the OJP:

  1. Remedy the $1,134 in unallowable transaction costs.

  2. Remedy the $9,038 in travel costs that were charged to another
     NLECTC program.

  3. Ensure that University of Denver officials implement policies and
     criteria to determine how NLECTC activities should be charged to
     the appropriate program.

  4. Remedy the $44,071 in personnel costs for personnel not

     included in the approved cooperative agreement budget.


  5. Remedy the $454,285 in costs for contracts that were not

     competitively bid.


  6. Remedy the $77,814 in unallowable costs for fees charged from
     a cost-plus-a-percentage-of-cost contract.

  7. Ensure that University of Denver officials require that all
     contractors provide adequate documentation of their services
     rendered in order to be compensated.




                                 31

             DRAFT AUDIT REPORT – LIMITED OFFICIAL USE

                                                           APPENDIX I


            OBJECTIVES, SCOPE, AND METHODOLOGY

       The purpose of this audit was to determine whether
reimbursements claimed for costs under the cooperative agreement
were allowable, supported, and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the cooperative
agreement, and to determine program performance and
accomplishments. The objective of our audit was to review
performance in the following areas: (1) internal control environment;
(2) drawdowns; (3) cooperative agreement expenditures, including
personnel and indirect costs; (4) budget management and control;
(5) matching; (6) property management; (7) program income;
(8) financial and progress reports; (9) cooperative agreement
requirements; (10) program performance and accomplishments; and
(11) monitoring of subrecipients and contractors. We determined that
matching costs, property management, program income, and
monitoring of subrecipients were not applicable to this cooperative
agreement.

       We conducted this performance audit in accordance with
generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. Our
audit concentrated on, but was not limited to, the award of the
cooperative agreement on September 23, 2009, through September
10, 2010. This was an audit of the National Institute of Justice
Continuation Awards cooperative agreement No. 2009-IJ-CX-K010,
for the operation of the Weapons and Protective Systems Center of
Excellence The University of Denver has drawn down a total of
$1,278,897 in cooperative agreement funds through September 10,
2010. As stated in the report, due to timing of the University of
Denver receiving a supplement to this award, we determined to not
include the supplement in our scope.

      We tested compliance with what we consider to be the most
important conditions of the cooperative agreement. Unless otherwise
stated in our report, the criteria we audit against are contained in the
Office of Justice Programs Financial Guide and the award documents.



                                   32

             DRAFT AUDIT REPORT – LIMITED OFFICIAL USE

                                                              APPENDIX I

       In conducting our audit, we performed sample testing in five
areas, which were drawdowns, cooperative agreement expenditures,
personnel expenditures, FFRs, and Progress Reports. In this effort, we
employed a judgmental sampling design to obtain broad exposure to
numerous facets of the awards reviewed, such as dollar amounts or
expenditure category. We identified samples of 10 of 10 drawdowns
(which included all drawdowns made as of the date of our fieldwork),
87 of 1,621 cooperative agreement expenditures, 2 of 2 progress
reports, and 4 of 4 FFRs. It should also be noted that we had selected
a judgmental sample of 77 transactions for transaction testing, totaling
$881,813 and 15 transactions (5 of the transactions were also selected
for transaction testing) for indirect cost testing totaling $29,472.

       In addition, we evaluated performance to cooperative agreement
objectives, and evaluated the recipient’s monitoring of contractors.
However, we did not test the reliability of the financial management
system as a whole and reliance on computer based data was not
significant to our objective.




                                  33

                    DRAFT AUDIT REPORT – LIMITED OFFICIAL USE

                                                                            APPENDIX II

                  SCHEDULE OF DOLLAR-RELATED FINDINGS10
      QUESTIONED COSTS:                                       AMOUNT          PAGE

            Unallowable Costs for Property                    $     1,134      14,18
              Damage

            Unallowable Travel Costs                                9,038        16

            Unallowable Personnel Costs                            44,071        18

            Unallowable Contracting Costs                         454,285        24

            Unallowable Fees for cost-plus contract                77,814        25

      Total Questioned Costs:                                $586,342

      TOTAL DOLLAR-RELATED FINDINGS                          $586,342




       10
           Questioned Costs are monies spent that, at the time of the audit, do not comply
with legal requirements, or are unsupported, unbudgeted, or are unnecessary or
unreasonable. They can be recoverable or nonrecoverable.

                                             34
             DRAFT AUDIT REPORT – LIMITED OFFICIAL USE

                                                         APPENDIX III


DETAILED UNALLOWABLE COSTS FROM DIRECT AND INDIRECT
               TRANSACTION TESTING
     TRANSACTION                   DATE            AMOUNT
  Cherry Creek Marina           1/28/2010             $900
  Cherry Creek Marina           1/28/2010              234
 TOTAL UNALLOWABLE COSTS FROM DIRECT AND
             INDIRECT TRANSACTION TESTING:          $1,134




                                    35

        DRAFT AUDIT REPORT – LIMITED OFFICIAL USE

                                                    APPENDIX IV

    DETAILED UNSUPPORTED CONTRACTOR COSTS
TRANSACTION                 DATE              AMOUNT
Contractor #7            1/19/2010              $6,000
Contractor #7            2/15/2010               6,000
Contractor #7            3/16/2010               6,000
Contractor #7            4/15/2010               1,500
Contractor #7            4/23/2010               4,500
Contractor #7            5/18/2010               6,000
Contractor #7            5/25/2010               1,056
Contractor #7            6/15/2010               1,944
TOTAL UNSUPPORTED CONTRACTOR COSTS:           $33,000




                             36

                  DRAFT AUDIT REPORT – LIMITED OFFICIAL USE

                                                                           APPENDIX V

                 DETAILED UNALLOWABLE TRAVEL COSTS
                                                         MEETING CITY
  DATE                   MEETING NAME                      AND STATE          COST
4/15/2010   Meeting w. Lockheed Martin - ROC Centers    Washington, DC        $  142
4/15/2010   Ribbon Cutting for ROC Center               Rockville, MD            124
4/30/2010   Meet w/ Outreach Specialists                Lincolnshire, IL         178
5/21/2010   2010 Kansas Joint Law Enforcement           Hutchinson, KS           182
               Conference
5/21/2010   2010 Kansas Joint Law Enforcement           Hutchinson, KS            182
               Conference
5/31/2010   CFED West Conference - Outreach             Palm Springs, CA          323
5/26/2010   Idaho Sheriff's Association Conference      Coeur d'Alene,            620
                                                        ID
5/26/2010   Idaho Sheriff's Association Conference      Coeur d'Alene,            485
                                                        ID
5/17/2010   Meet w/ Outreach Specialists                Lincolnshire, IL          230
5/17/2010   Meet w/ Outreach Specialists                Lincolnshire, IL          178
5/31/2010   Meet w/ Outreach Specialists                Lincolnshire, IL          178
6/17/2010   2010 Kansas Joint Law Enforcement           Hutchinson, KS            731
               Conference
6/17/2010   2010 Kansas Joint Law Enforcement           Hutchinson, KS            432
               Conference
6/17/2010   Idaho Sheriff's Association Conference      Coeur d'Alene,            523
                                                        ID
6/17/2010   Idaho Sheriff's Association Conference      Coeur d'Alene,            299
                                                        ID
6/9/2010    Idaho Sheriff's Association Conference      Coeur d'Alene,            193
                                                        ID
6/9/2010    Idaho Sheriff's Association Conference      Coeur d'Alene,            193
                                                        ID
6/15/2010   Montana 2010 Joint LE Training &            Helena, MT                701
               Convention
6/17/2010   Outreach WA Assn of Sheriff's & Chiefs of   Spokane, WA               153
               Police
6/17/2010   Rural CAG Meeting                           Scottsdale, AZ            189
7/13/2010   LA Sheriff's Assn. Conference               Destin, FL                451
7/26/2010   LA Sheriff's Assn. Conference               Destin, FL                593
7/15/2010   Missouri Sheriff's Assn.                    Branson, MO               461
7/15/2010   Montana 2010 Joint LE Training &         Helena, MT                   984
              Convention
7/15/2010   Montana 2010 Joint LE Training &         Helena, MT                   317
              Convention
                                   TOTAL UNALLOWABLE TRAVEL COSTS:             $9,038




                                            37

                     DRAFT AUDIT REPORT – LIMITED OFFICIAL USE

                                                                  APPENDIX VI

                DETAILED UNBUDGETED PERSONNEL COSTS
                                                        FRINGE
                            SALARY     LEAVE RESERVE    BENEFIT
       POSITION             COSTS         CHARGES        COSTS    INDIRECT COSTS
Public Information         $20,062           $3,009     $4,875          $7,266
   Officer
Student Intern               6,927               0         104          1,828
                             TOTAL UNALLOWABLE PERSONNEL COSTS:       $44,071




                                         38

                 DRAFT AUDIT REPORT – LIMITED OFFICIAL USE

                                                                APPENDIX VII

        DETAILED COSTS FOR CONTRACTORS THAT WERE NOT
                      COMPETITIVELY BID
                    AMOUNT
                  AWARDED TO    TOTAL DIRECT   TOTAL INDIRECT    TOTAL PAYMENTS
 CONTRACTOR       CONTRACTOR       COSTS           COSTS         TO CONTRACTOR
Contractor #1       $71,250        $49,913              $0           $49,913
Contractor #2        27,000         26,650           6,500             33,150
Contractor #3        54,000         48,000               0             48,000
Contractor #4        49,669         32,944               0             32,944
Contractor #5        98,000         70,000           6,500             76,500
Contractor #6        44,000         43,400           6,500             49,900
Contractor #7        36,000         33,000               0             33,000
Contractor #8        95,000         94,478               0             94,478
Contractor #9        11,000         10,317               0             10,317
Contractor #10       35,000         26,084               0             26,084
   TOTALS                        $434,785        $19,500           $454,285




                                    39

                   DRAFT AUDIT REPORT – LIMITED OFFICIAL USE

                                                                    APPENDIX VIII

   DETAILED FEES FROM CONTRACTOR RESPONSIBLE FOR TRAVEL
                       ARRANGEMENTS
                                                               TOTAL
                                                              MEETING
                    MEETING NAME                              EXPENSES    FEE
October Community Corrections TWG - Denver, CO                   $4,765     $1,048
October Institutional Corrections TWG - Arlington, VA               439           97
November OSPT TWG - Ft. Lauderdale, FL                           11,470         2,523
December NBSCAB Meeting – Huntsville, AL                         19,142         4,211
December Holsters and Restraints STC Meeting - Bohemia,           9,902         2,178
   NY
December Offender Tracking STC - Baltimore, MD                   16,198         3,564
December RMTAC - Denver, CO                                      10,431         2,295
Denver Judges SCRAM & AMS Facility Visit - Denver CO                434           95
Explosives Technology Demo - Inyokern, CA                         1,008          222
Individual Hotel - Invoices 2765 & 2179 - Denver, CO                319           70
Offender Tracking STC - Arlington, VA                             2,198          484
January ACA Conference - Tampa, FL                                2,555          562
January APPA Conference - Austin, TX                              1,517          334
January Holsters & Restraints STC - Las Vegas, NV                22,735         5,002
January Offender Tracking STC - Tampa, FL                        10,281         2,262
February Offender Tracking STC - Denver, CO                      12,126         2,668
March Holsters STC - Orlando, FL                                  9,859         2,167
March NBSCAB TWG Meeting - Huntsville, AL                        13,891         3,056
March Offender Tracking STC - San Diego, CA                      17,500         3,850
April Officer Safety & Protective Technology - New Orleans,      14,397         3,167
   LA
April Community Corrections TWG - Washington, DC                 11,157         2,455
April Institutional Corrections TWG - Washington, DC             10,204         2,245
April Offender Tracking STC - Washington, DC                     13,027         2,866
April RMTAC - Denver, CO                                         10,618         2,336
TCIP - NIJ Conference - Philadelphia, PA                            456          100
Warden's Peer Group - Huntsville, TX                                979          215
Innovative Technologies for Corrections Conference - Ft.         35,281         6,662
   Lauderdale, FL
May Offender Tracking STC - Alexandria, VA                       14,253         3,136
June NBSCAB TWG Meeting - Rio Grande, Puerto Rico                28,973         6,374
June Offender Tracking STC - Alexandria, VA                      17,466         3,843
June Restraints STC Meeting - Annapolis, MD                       6,548         1,441
Meeting w/Lockheed Martin - ROC Centers - Washington,               142           31
   DC
Ribbon Cutting for ROC Center - Rockville, MD                       124           27



                                              40

                    DRAFT AUDIT REPORT – LIMITED OFFICIAL USE

                                                                     APPENDIX VIII
                                                              TOTAL
                                                             MEETING
                       MEETING NAME                          EXPENSES      FEE
Contractor - Misc                                                 5,265          1,158
Meet with Outreach Specialists - Lincolnshire, IL                   763           168
Mock Prison Riot - Moundsville, VA                                4,194           923
2010 Kansas Joint Law Enforcement Conference -                    1,528           336
   Hutchinson, KS
CEFD West Conference - Outreach - Palm Springs, CA                  323            71
Idaho Sheriff's Association Conference - Coeur d'Alene, ID        2,312           509
NIJ Conference - Arlington or Alexandria, VA                        955           210
GPS Task Force Meeting - Sacramento, CA                           1,149           253
Maritime Workshop (Explosives) - Huntsville, AL                     949           209
NFPA 472 WG Conference (Explosives) - Anniston, AL                  326            72
Montana 2010 Joint LE Training and Convention - Helena,           1,957           431
   MT
Outreach WA Association of Sheriff's & Chiefs of Police ­           153            34
   Spokane, WA
Rural CAG Meeting - Scottsdale, AZ                                  189            41
ACA Conference - Chicago, IL                                        505           111
August Offender Tracking STC - Washington, DC                     5,824          1,281
LA Sheriff's Association Conference - Destin, FL                  1,044           230
Missouri Sheriff's Association - Branson, MO                        461           101
Supplies                                                            220            48
                                                             TOTAL FEES:    $77,814




                                               41

                                                                                       APPENDIX IX


UNIVERSITY OF DENVER RESPONSE TO DRAFT AUDIT REPORT




                               The University of Denver
                 Response to OIG Draft Audit Report (January 11, 2011)
                     NIJ Cooperative Agreement 2009·IJ·CX·K010


    The fOllowing are responses to the recommendations detailed in the Draft Audit Report
    submitted to the University of Denver by the United States Department of Justice, Office
    of the Inspector General concerning the recent audit of National Institute of Justice's
    (NIJ) cooperative agreement number 2009-IJ·CX-K010,

    At the outset, it should be noted that the University of Denver strives to comply with the
    various rules, regulations, laws and executive orders that govern cooperative
    agreements and grants that are sponsored by the federal government.

    The University of Denver has enjoyed a valued relationship with the National Institute of
    Justice for nearly two decades operating some component of the National Law
    Enforcement and Corrections Technology Center program (Nl ECTC),

    The University of Denver has annual audits performed as required by OMS Circular A-
    133 and the Code of Federal Regulations. In addition to annual aud its, NIJ staff
    members regularly conduct site visits and performance reviews and interact almost
    daily, one on one, with University staff in managing the NLECTC programs.

    Lastly, the University notes that in addition to annual audits, an OIG audit was
    conducted in CY 2006 (March 2007 report), At that time, the University's procurement
    and contracting practices were examined and no findings or recommendations were
    made by the OIG. There have been no substantive changes to the University's policies
    in the three years since the last OIG audit. An integral part of the overall operation of
    the NLECTC system is the reliance on the use of subawards and professional services
    contracts, in order to maximize service delivery and reduce cost. For this reason, the
    NLECTC has relied on both subawarcls and professional services contracts since the
    inception of the NLECTC at the University of Denver. The University believes that the
    findings made in the current audit are the result of legitimate misinterpretations of our
    practices.

    The University of Denver takes great pride in its compliance practices. The University
    of Denver also provides ongoing training for personnel who must interpret and
    implement the changing and often complex rules and regulations governing the
    management of federal grants and cooperative agreements.

    The University of Denver hopes that the offered responses, along with those that are
    expected to be submitted on behalf of NIJ staff, resolve all of the issues herein raised .
    The University of Denver looks fOJWard to ongoing discussions with the OIG and NIJ.

                                             Page lof9




                                                 42

                                                                                   APPENDIX IX





               University of Denver Responses to Rec ommendations
                       (See page 31 of the OIG Draft Report)

1.     Remedy the $1,134 in unallowable transaction costs.

The University of Denver (DU) does not concur with this recommendation. This charge
was incurred during an NIJ sponsored event al an offsile, leased location. The damage
was caused by a fire Ihat was started in a fire pit, using wood that was provided by the
property owner. The property owner discovered Ihat the fire burned too hot and the
result was minor damage that was caused to the decking below the fire pit. The
property owner made a claim totaling $900 to repair the damage that was done. The
University does not believe that this damage was caused by negligence or that it was
intentional. This damage occurred in the normal course of business during a
conference sponsored by NIJ and DU. An NIJ program manager as well as the
NLECTC Director were present during this event and supervised the event and
observed those in attendance.

This expense was reviewed with NIJ and with concurrence it was detennined that
because this damage was not the result of negligence or intentionally caused it was
appropriate to charge to award. We believe that the cost (along with the associated
indirect cost) fo r this damage is a cost thai should be classified as a nonnal repair and
is allowed under OMS Circular A-21 (A-2 1) and the OJP financial guidelines.

2.    Remedy the $9,038 in travet costs that were charged to another NLECTC
program.

The University of Denver does not concur with this finding , but does agree to review the
travel costs for the appropriate programs. As discussed with OIG staff, The University
of Denver manages two distinct, yet closely related ' centers' for the NIJ; the Weapons
and Protective Systems Technology Center (WPSTC) and Ihe Regional Outreach
Center (ROC). Both of these ' centers" have an outreach component and bolh of the
' centers" rely on joint staffing by members of the University of Denver.

The University of Denver believes that olq misunderstood the nature of the work
conducted by the WPSTC. The WPSTC has an outreach component and often staff
from the University are called upon and directed to participate in regional and national
events to provide information to criminal justice practitioners about the work and
services being done by the NIJ and WPSTC. Due to the overlapping and sometimes
joint effort and work being done by staff on the WPSTC as well as the ROC. it becomes
very difficult, if not impossible, to parse the work effort and resulting expenditures
between the WPSTC andlor the ROC. OIG has taken a narrow approach in
detennining that any event appearing at first glance to be ' outreach" may only be


                                         Page 2 of 9




                                             43
                                                                                 APPENDIX IX





charged to the ROC. The WP$TC has an outreach component and staff of the
University must travel to events to discuss the work. being done by the N1J and WPSTC.

This is not to say that a better method cannot be developed to clearly distinguish travel
and outreach activities between the two centers. The University wi!! work with the NIJ to
review all of the costs that have been identified in the OIG report and make any
adjustments between the WPSTC and ROC accounts that may be necessary after such
a careful review.



3.    Ensure that University of Denver officials implement policies and criteria to
determine how NLECTC activities should be charged to the appropriate program.

The University of Denver concurs with this recommendation. As noted above, the
University will work with NIJ to clearly identify costs to a specific program. The
University of Denver works and communicates almost daily with officials from the NIJ
and agrees to review all business practices to ensure compliance with the various rules,
regulations that apply to cooperative agreements. In relation to travel, effective
immediately, prior approval from NIJ is now required before charging any travel to a
specific program.



4.   Remedy the $47,370 in personnel costs for personnel not included in the
approved cooperati ve agreement budget.

The University of Denver does not concur with Ihis recommendation. Although not
specifically identified by ·position" the work that was performed by the individuals
mentioned in the report worked exclusively on NIJ programs, specifically those
associated with the WPSTC. The personnel in question performed work. tasks that
would be performed by the Sr. Program Manager in the cooperative agreement budget.
The University position title for one of the individ uals is Program Manager. The
personnel costs are allowable under OMS-Circular A-21 and the OJP Financial Guide
and were performed for the benefit of the agreement. Although these questioned
positions did not appear as a unique line item on the budget, the University does join
with the findings by the OIG that the budget category for personnel was not exceeded .

The University will work with NIJ to make any modifications to the original budget,
submit any Grant Adjustment Notices, or other corrective actions to resolve this item. In
addition, the University will budget personnel in more detail, if appropriate, in future
proposals. The University will continue to seek NIJ approvals or modifications if
personnel or scope or work outside the budget agreement is required.


                                        Page 3 of9




                                            44
                                                                                   APPENDIX IX





5.     Remedy the $454,285 in cos t for contracts that were not c ompetiti vely bid.

The University of Denver does not concur with this recommendation. The University
believes that its procurement policies and general practices do comply with Special
Condition 24 of the cooperative agreement, the OJP Financial Guide, and CFR's cited
by the OIG. Essentially, this finding centers on the need to competitively bid contracts
for professional services.

The University's purchasing and procurement policies allow for an exemption from
competitive bidding on subawards and professional services contracts. As noted in the
opening narrative of this response, this purchasing policy has been audited as part of
the University's A-133 audit without exception and was audited by OIG in 2006 with no
findings or recommendations. The University's reliance on these previous findings is
therefore reasonable.

There is no explicit requirement in Special Condition 24 or 28 CFR Part 70 that requires
competitive bidding on subawards and professional service contracts. The only
requirement is that vendor services be procured by free and open competition to the
maximum extent practical. This does not mean that vendor contracts be competnively
awarded in all cases.

By their very nature, subawards and professional service contracts require a unique,
specialized service that in most cases cannot be procured through the competitive
bidding process appropriate to pure "vendor" contracts, such as the University's travel
service contract that was competitively bid. In most cases, the contractors used on the
coopera tive agreement are nationally recognized subject matter experts in their field . In
addition to their specialized skills and experience, these contractors have substantive
roles in the design and management of the award as part of their subaward or contract
responsibilities, which renders them sub-recipients of the NIJ award, rather than
vendors subject to normal procurement rules . T he selection of the individuals for
subawards and professional service contracts was done in direct consultation with the
N1J Program Manager, who concurred with the University's approach.

The University concedes that a short memo explaining the exception to the University's
policy was not included in the contract files in the Office of Research and Sponsored
Programs (ORSP) for those services deemed to be professional in nature_ The
SUbstantiation for these contracts had b~en maintained by the NLECTC Director.
Corrective action has been taken wherein such memos win be prepared and included in
the contract files identified by the OIG as well as future contract files for professional
services.




                                         Page 4 of9




                                             45
                                                                                 APPENDIX IX





In addition, OMS Circular A-21 -J.37 specifically allows professional service costs for
those who are members of a profession or possess a specialized skill. The cooperative
agreement received the benefits of the professional service work performed . Further,
the University and NIJ believe the cost of these services to be fair and equitable to the
agreement and the Federal government.

As noted above, the University's purchasing and procurement policies allow for an
exemption from competitively bidding on contracts for professional services. Of the
contracts questioned by OIG, all but two are for professional services (the other two
were for the work in the explosives area and are discussed below). One of the
professional services contracts involved a former full time benefitted employee of the
University who worked exclusively on NIJIVIIPSTC related issues. During the recent
budget decrease, in an effort to save government resources while still maintaining the
level of service NIJ expected, this employee was gave up her full time benefitted
pOSition and accept a professional services contract. The net result was a savings to
the cooperative agreement by avoiding payment for fringe benefits and the associated
indirect costs of a fuJl·time employee. The employee/contract professional lost her
health, retirement and other employee benefits in this transition. However, as a contract
staff member, this individual was free to accept work from other employers and enjoy
the independence associated with being a contractor. This process was done to red uce
expenses to the cooperative agreement The net result was that the individual was able
to maintain a monthly salary similar to what she would have earned as an employee
and the cooperative agreement paid considerably less for her services. Thus,
significant cost savings were realized as contemplated by OMS Circular A-21 ,
Attachment J.37. It would be impractical to competitively bid a professional services
contract in this type of situation, even if it were required .

The OIG expressed concern regarding the documentation to support the services of this
contractor. T he documentation for the services provided is contained in the meeting
reports. This contractor attended the meetings (which OIG verified in the draft report)
and provided the meeting notes to the Assistant Director for report preparation. The
Assistant Director approved the work that was done by this contractor in order to
prepare the report. The University believes these to be property approved allowable
professional service costs under OMS Circular A-21, for which the cooperative
agreement received a direct and measurable benefit. As will be discussed in item #7
later in this report, the University will improve the process of documenting reports
submitted by cOntractors.

Other contracts that are mentioned in the OIG report are for individuals. most of whom
have organized themselves as sole proprietor limited liability companies, and who are
recognized as national subject matter experts. As small businesses. these contractors
would be provided preferential consideration even if a competitive bid process was

                                        Page S of9




                                            46
                                                                                  APPENDIX IX





required. These individuals are specifically recruited to participate in and manage
certain aspects of the WPSTC. The selection process for these individuals is done in
consultation with program managers at the NIJ and in the spirit of the cooperative
agreement. The selection process follows the same process as would be followed jf
these individuals were being considered for full time employment, i.e. resume review,
interview and background check. Because most of these individuals also work on other
government and non-government contracts, the only way to retain their services is
through a professional services contract. The rate of payment is determined, using as a
basis, the rate of compensation that the University of Denver would pay, if these experts
were hired as full time benefitted employees. A competitive bid process would defeat
the objectives of hiring these identified subject matter experts. By not making these
individuals full time benefitted employees, there is a significant cost savings realized by
the cooperative agreement.

In both of the above instances, the University believes that the OIG has
mischaracterized the scope of work, the nature of work and the benefit 10 the
cooperative agreement by allowing individuals to be retained by the University of
Denver under a professional services contract.

With regard to the two contracts that were executed for the services related to the
explosives program; the OIG noted that these contracts were directed by the NIJ. The
University will obtain the written authorization from NIJ regarding these contracts. The
services performed by this particular contractor, working for two different entities over
the performance period, are unique . There would be no manner in which a competitive
bid for these services would be beneficial to the government, even if this contractor was
not a directed subcontractor. Th is contractor is a retired FBI senior professional who
has been involved with the National Bomb Squad Advisory Board (NBSCAB) since its
inception. As noted by Ihe OIG, this particular contract is part of an intergovernmental
agreement involving NIJ in cooperation with the Department of Defense and the
Department of Homeland Security. Additionally, this particular contractor and the
amount paid were included as a specifiC cost in the budget. Thus the contractor and the
cost associated with this contract were part of the budget review and approval process.
Since this contractor has been used by NIJ on other contracts, N1J has had the
opportunity to review his costs and determined them to be reasonable. Thus, a
competitive award process was unnecessary in his case.

Finally, the University of Denver points out that none of the contracts questioned by the
DIG exceed the S100,000 threshold wherein a competitive bid is a prerequisite to a
contract notwithstanding the University's polices.




                                         Page 6of9




                                            47
                                                                                   APPENDIX IX





The University's policy, as mentioned by the OIG, allows for an exemption to
competitive bids on professional services contracts and the University believes that it
has complied with the Special Condition 24, regulations in the OJP financial guidelines,
the CFR's cited by the OIG and the policies and procedures adapted by the University
of Denver in conformity with past OIG audits . The University also firmly believes that
all of the contractor costs (and any associated indirect costs) are specifically allowable
under OMB Circular A-21 of which the cooperative agreement received fair and
equitable benefit. In this regard, the factors specified in OMB Circular A-21,
Attachment J.37, such as a comparison with in house costs, the customary nature of the
fees charge (as corroborated by NIJ), and past patterns of procuring such services, all
support the University's practices in this case.



6.    Remedy the $77,814 in unallowable costs for fees charged from a cost plus
a percentage of cost contract
As noted by the OIG, this contract was competitively bid and is not considered to be a
professional services contract.

After review of the contract, the University of Denver concurs that the travel agent
contract as executed is a ' cost-plus-a-percentage-of-cost" contract. The University will
work with the NIJ to better clarify the contractual language and , if necessary, modify this
contract to a form of a ·cost-plus-fixed -fee " contract.

However, the University of Denver does not concur that the fee paid to the travel
contractor is totally unallowable. This service fee is an allowable cost under OMS
Circular A-21 and the cooperative agreement received the benefit of these services.
The University also firmly believes the cost for these services to be fair and equitable to
the cooperative agreement and the Federal government. In addition, the contract in its
existing form (cost + percentage) was approved by NIJ in the cooperative budget.

T his contractor books lodging, airfare and makes per diem expense reimbursements for
travelers identified by NLECTC and NIJ for travel to official functions, meetings,
conferences and events. This contractor must book lodging for all travelers that utilize
its services at or below government authorized per diem rates. The lodging venues are
those that have been preselected and approved by NIJ. Additionally. this contractor
reimburses travelers for MI&E according to the OPM approved per diem rates. Thus,
there is no ability for this contractor to gain any advantage in profit in its obligation to
book rooms or make MI&E reimbursements.

This contractor also books airline tickets. Because airfare prices are not fixed, NLECTC
staff monitors every ticket that is purchased . NLECTC staff conducts a cost survey for

                                         Page 7 of9




                                             48
                                                                                     APPENDIX IX





airfare in the planning of all events and thus has a reasonable expectation of what price
should be paid for airfare. Every ticket purchased is monitored by NLECTC staff and
there has not been one instance wherein a ticket price has been found to be excessive.
No airline change fees, rescheduling fees or other costs are allowed by this contractor
without pri or NLECTC staff approval. Approval is reserved for instances where there is
a legitimate need to make such changes.

In fact, because this contractor is given specific date and time windows allowed for
arrival and departure, there are generally only a few airline options available for
selection. As an added layer of assurance that this contractor is booking airfare at the
lowest price, this contractor has been instructed to find the lowest airfare using no more
than one layover in making all airline reservations.

The OIG has expressed concern that this particular contract potentially allows for this
contractor to make excessive fees/profit by not utilizing the lowest possible means to
secure lodging and/or airfare. As mentioned, the lodging fees and MI&E
reimbursements are fixed thus there is no ability to overcharge. With regard to airfare,
the University believes that this contractor has in fact saved the cooperative agreement
money compared to the former method that was used. The former practice allowed
each traveler to book their own airfare and then seek reimbursement. Under the former
practice, there was minimal oversight and travelers often found the most direct flights
during preferred hours of travel resulting in the highest possible ticket price for that
travel segment

Lastly, it should be noted that the University·s current indirect cost rate for the NIJ
cooperative agreement is 26%. The contractor in this instance charges 22%. If
University employees were to handle the services that this contractor now provides, it
would cost the government, at a minimum, an additional 4%. It is believed that this cost
would be even more since the University would have to hire additional staff to manage
this task.

7.    Encourage that University of Denver officials require that all contractors
provide documentation of their services rendered, as well as time and effort
reports in order to be compensated.

The University concurs with the recommendation that all contractors be required to
provide documentation to support their services. All contractors currently do provide
some level of documentation, depending on their particular task and this information is
then incorporated into the monthly, quarterly and annual reports to NIJ. University staff
will work to ensure that each contractor is better identified for his/her contribution in the
reports and documentation and to ensure that all reports submitted are consistent and
uniform. The producer and approver of all documents will be specifically identified.


                                          Page8of 9




                                              49
                                                                                     APPENDIX IX





The University does not concur with the recommendation that contractors document
their lime and effort. This practice would violate the prohibitions defining contract
employees as well as the prohibitions of the Fair labor Standards Act (FlSA) and other
federal and state rules conceming contract employment. The University works very
hard to ensure compliance with the various rules and laws that distinguish employees
from contractors and as a result contractors are not encouraged to keep or submit
time/attendance records. Contractor effort is measured by task performance. not hours.
Contractors have not been renewed in instances where their work has been determined
to be substandard. The flexibility that is afforded , in addition to the cost savings realized
by the government, makes the use of professional services contracts much more
appealing than hiring fuJi time employees to execute the tasks associated in fulfilling the
obligations of the WPSTC and other NIJ related programs.




                                          Page90f9




                                              50
                                                                APPENDIX X


OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION, COMMENTS
 ON UNIVERSITY OF DENVER’S RESPONSE TO THE DRAFT REPORT

       The Office of the Inspector General (OIG), Audit Division, provided a
draft of this audit report to the Office of Justice Programs (OJP) and to the
University of Denver. University of Denver included comments on the report
regarding details of the University of Denver WPSTC Program and its
activities, programs, and contractors. The OIG, Audit Division, has identified
further issues in the University of Denver’s response to our draft report (see
Appendix IX) that we believe should be addressed. As a result, we are
providing the following comments on the University of Denver’s response to
the draft report.

       University of Denver’s Response to recommendation 1 on page 43 of
this report states:

      This charge was incurred during an NIJ sponsored event at an
      offsite, leased location. The damage was caused by a fire that
      was started in a fire pit, using wood that was provided by the
      property owner. The property owner discovered that the fire
      burned too hot and the result was minor damage that was
      caused to the decking below the fire pit. The property owner
      made a claim totaling $900 to repair the damage that was done.
      The University does not believe that this damage was caused by
      negligence or that it was intentional. This damage occurred in
      the normal course of business during a conference sponsored by
      NIJ and DU. An NIJ program manager as well as the NLECTC
      Director were present during this event and supervised the event
      and observed those in attendance.

      This expense was reviewed with NIJ and with concurrence it was
      determined that because this damage was not the result of
      negligence or intentionally caused it was appropriate to charge
      to award. We believe that the cost (along with the associated
      indirect cost) for this damage is a cost that should be classified
      as a normal repair and is allowed under OMB Circular A-21 (A­
      21) and the OJP financial guidelines.

      As stated in the report, the 2009 OJP Financial Guide states that
the cost of normal repairs and maintenance are allowable to the extent
they are not otherwise included in rental or other charges for a space.
As stated in the report, in our judgment, the fee for property damage
at the marina does not qualify as a normal repair or maintenance fee.

                                      51

                                                                 APPENDIX X



Although the cost mentioned occurred during a program event, we do
not believe that it was a part of the normal or expected course of
business and, as the University of Denver stated in its response, was
unintentional. The OMB Circular the University of Denver cites in its
response (A-21) discusses reasonableness of costs charged to grants
and states that “A cost may be considered reasonable if the nature of
the goods or services acquired or applied, and the amount involved
therefore, reflect the action that a prudent person would have taken
under the circumstances prevailing at the time the decision to incur
the cost was made.” The Circular goes on to state that “Major
considerations involved in the determination of the reasonableness of
a cost are:… whether or not the individuals concerned acted with due
prudence in the circumstances, considering their responsibilities to the
institution, its employees, its students, the Federal Government, and
the public at large.” In our opinion, the grantee did not act in a
prudent manner by conducting a fire demonstration on a leased
wooden deck because it would be reasonable to conclude that such
action would cause fire damage. Therefore, we still consider the
$1,134 in transaction costs to be unallowable.

       University of Denver’s Response to recommendation 2 on pages 43-44
of this report states:

      The University of Denver believes that OIG misunderstood the
      nature of the work conducted by the WPSTC. The WPSTC has an
      outreach component and often staff from the University are
      called upon and directed to participate in regional and national
      events to provide information to criminal justice practitioners
      about the work and services being done by the NIJ and WPSTC.
      Due to the overlapping and sometimes joint effort and work
      being done by staff on the WPSTC as well as the ROC, it
      becomes very difficult, if not impossible, to parse the work effort
      and resulting expenditures between the WPSTC and/or the ROC.
      OIG has taken a narrow approach in determining that any event
      appearing at first glance to be "outreach" may only be charged
      to the ROC. The WPSTC has an outreach component and staff of
      the University must travel to events to discuss the work being
      done by the NIJ and WPSTC.

      According to the OJP Financial Guide, funds specifically budgeted
and/or received for one project may not be used to support another. Where
a recipient’s or subrecipient’s accounting system cannot comply with this
requirement, the recipient or subrecipient shall establish a system to provide
adequate fund accountability for each project it has been awarded. Also,

                                      52

                                                                APPENDIX X



according to OMB Circular A-21, if a cost benefits two or more projects or
activities in proportions that can be determined without undue effort or cost,
the cost should be allocated to the projects based on the proportional
benefit. If a cost benefits two or more projects or activities in proportions
that cannot be determined because of the interrelationship of the work
involved, then, the costs may be allocated or transferred to benefited
projects on any reasonable basis.

      During our analysis, we reviewed invoices from the contractor
responsible for travel arrangements. As stated in the report, we identified
several line items that were not labeled with the proper account fund code
designated for the WPSTC program. We inquired WPSTC officials concerning
the invoices, and were informed that when a WPSTC program manager
submits a Group Travel Request to this contractor, the WPSTC program
manager must assign a program, like the WPSTC or ROC program, to the
event.

       We acknowledge, as stated by University of Denver officials, the
difficulty in assigning activities between the WPSTC and ROC programs
because of their overlapping missions. However, as stated in the report, we
had identified items in the travel contractor’s invoices that were designated
as ROC program activities. As a result, we still consider the $9,038 in travel
costs unallowable.

      University of Denver’s Response to recommendation 4 on page
44 of this report states:

      Although not specifically identified by "position" the work that
      was performed by the individuals mentioned in the report
      worked exclusively on NIJ programs, specifically those
      associated with the WPSTC. The personnel in question performed
      work tasks that would be performed by the Sr. Program Manager
      in the cooperative agreement budget. The University position
      title for one of the individuals is Program Manager. The
      personnel costs are allowable under OMB-Circular A-21 and the
      OJP Financial Guide and were performed for the benefit of the
      agreement. Although these questioned positions did not appear
      as a unique line item on the budget, the University does join
      with the findings by the OIG that the budget category for
      personnel was not exceeded.

      As stated in the report, we determined that grant expenditures
did not exceed the budget amount for personnel costs. We also
concluded that the duties listed by these questioned WPSTC personnel

                                      53

                                                                 APPENDIX X



were not similar to the duties for the Program Manager positions that
were included in the approved budget, and therefore, out of the scope
of the cooperative agreement. For example, the WPSTC Director
stated that a Program Manager’s responsibilities include managing
various programs, coordinating outreach, and technical assistance
request made of the WPSTC. However, duties involving marketing,
communications, and event planning performed by the Public
Information Manager were not consistent with a Program Manager’s
duties. Also, the job duties of another grant-funded position include
general clerical assistance to staff, which were not similar to the duties
the Program Manager position that was approved by OJP. According to
the OJP Financial Guide, a formal request from the grantee for a GAN
is required when scope of the project is changed. Therefore, we still
consider the $44,071 in personnel costs to be unallowable.

     University of Denver’s Response to the Draft Audit Report on
page 42 of this report states:

      The University notes that in addition to annual audits, an OIG
      audit was conducted in CY 2006 (March 2007 report). At that
      time, the University's procurement and contracting practices
      were examined and no findings or recommendations were made
      by the OIG. There have been no substantive changes to the
      University's policies in the three years since the last OIG audit.
      An integral part of the overall operation of the NLECTC system is
      the reliance on the use of subawards and professional services
      contracts, in order to maximize service delivery and reduce cost.
      For this reason, the NLECTC has relied on both subawards and
      professional services contracts since the inception of the NLECTC
      at the University of Denver. The University believes that the
      findings made in the current audit are the result of legitimate
      misinterpretations of our practices.

     Also, University of Denver’s Response to recommendation 5 on
page 45 of this report states:

      The University's purchasing and procurement policies allow for
      an exemption from competitive bidding on subawards and
      professional services contracts. As noted in the opening narrative
      of this response, this purchasing policy has been audited as part
      of the University's A-133 audit without exception and was
      audited by OIG in 2006 with no findings or recommendations.
      The University's reliance on these previous findings is therefore
      reasonable.

                                      54

                                                                       APPENDIX X




       The University of Denver refers to an audit report we issued in March
2007 of the Office of Justice Programs’ management of the National Law
Enforcement and Corrections Technology Centers (NLECTC) program. 11 The
University of Denver was 1 of 10 cooperative agreement recipients that
assisted with the implementation of this program and was 1 of the 10
recipients we visited for the 2007 audit. Our audit focused on OJP’s
management of the (NLECTC) program. Therefore, we did not conduct an
in-depth analysis of the University of Denver’s procurement policies’
adherence to general grant requirements for the March 2007 audit. As such,
the findings we discussed in this current audit report, which focused on the
University of Denver’s management of the cooperative agreement, were
generally not within the scope of the March 2007 audit.

       We do not agree with the University of Denver’s statement that the
findings made in the current audit are the result of legitimate
misinterpretations of its practices. As stated later in this section, we do not
take exception to the use of Professional Service Contracts, but when
competitive bidding practices are not conducted, there is no assurance that
the procurements made provide the maximum benefit for the federal
government and the cooperative agreement, regardless of whether the
contractors are paid amounts that they would have been paid as University
employees. As stated in the report, with exception to the occurrences
relating to the costs mentioned in pages 14-17 of this report, we found that
the transactions reviewed were generally properly authorized, classified,
supported, and charged to the cooperative agreement.

      University of Denver’s Response to recommendation 5 on page
45 of this report states:

      There is no explicit requirement in Special Condition 24 or 28
      CFR Part 70 that requires competitive bidding on subawards and
      professional service contracts. The only requirement is that
      vendor services be procured by free and open competition to the
      maximum extent practical. This does not mean that vendor
      contracts be competitively awarded in all cases.

      By their very nature, subawards and professional service
      contracts require a unique, specialized service that in most cases

      11
         U.S. Department of Justice Office of the Inspector General, Office of Justice
Programs National Law Enforcement and Corrections Technology Centers, Audit Report 07­
22 (March 2007).



                                          55

                                                                APPENDIX X



      cannot be procured through the competitive bidding process
      appropriate to pure "vendor" contracts, such as the University's
      travel service contract that was competitively bid. In most cases,
      the contractors used on the cooperative agreement are
      nationally recognized subject matter experts in their field. In
      addition to their specialized skills and experience, these
      contractors have substantive roles in the design and
      management of the award as part of their subaward or contract
      responsibilities, which renders them sub-recipients of the NIJ
      award, rather than vendors subject to normal procurement rules.
      The selection of the individuals for subawards and professional
      service contracts was done in direct consultation with the NIJ
      Program Manager, who concurred with the University's
      approach.

       We believe that there is a misunderstanding regarding the University
of Denver’s statement that there is no explicit requirement in Special
Condition 24 or 28 CFR Part 70 that requires competitive bidding on
subawards and professional service contracts. According to 28 CFR Part 70,
§ 70.41 through 70.48 set forth standards for recipients to establish
procurement procedures for supplies, other expendable property,
equipment, real property, and other services with Federal funds. These
standards are furnished to ensure that such materials and services are
obtained in an effective manner and in compliance with the provisions of
applicable Federal statutes and executive orders. The regulations state that
all procurement transactions must be conducted in a manner to provide, to
the maximum extent practical, open and free competition. Also, according
to the OJP Financial Guide, all procurement transactions, whether negotiated
or competitively bid and without regard to dollar value, shall be conducted in
a manner so as to provide maximum open and free, and fair competition.
These requirements are not specifically for vendors, but for all procurement
transactions under the cooperative agreement.

      University of Denver’s Response to recommendation 5 on page
47 of this report states:

      With regard to the two contracts that were executed for the
      services related to the explosives program; the OIG noted that
      these contracts were directed by the NIJ. The University will
      obtain the written authorization from NIJ regarding these
      contracts. The services performed by this particular contractor,
      working for two different entities over the performance period,
      are unique. There would be no manner in which a competitive


                                     56

                                                               APPENDIX X



     bid for these services would be beneficial to the government,
     even if this contractor was not a directed subcontractor. This
     contractor is a retired FBI senior professional who has been
     involved with the National Bomb Squad Advisory Board
     (NBSCAB) since its inception. As noted by the OIG, this
     particular contract is part of an intergovernmental agreement
     involving NIJ in cooperation with the Department of Defense and
     the Department of Homeland Security. Additionally, this
     particular contractor and the amount paid were included as a
     specific cost in the budget. Thus the contractor and the cost
     associated with this contract were part of the budget review and
     approval process. Since this contractor has been used by NIJ on
     other contracts, NIJ has had the opportunity to review his costs
     and determined them to be reasonable. Thus, a competitive
     award process was unnecessary in his case.

      In regards to the contractor involved with the National Bomb Squad
Advisory Board (NBSCAB), as stated in the report, since we were not
provided documentation to support an exemption from Special Condition 24,
and in particular 28 CFR Part 70, competitive bidding; we were unable to
conclude that the contracts between the University of Denver and this
contractor are exempt from Special Condition 24. Therefore, we still
consider these contracts in our recommendation.

     University of Denver’s Response to recommendation 5 on pages
45-48 of this report states:

     In addition, OMB Circular A-21-J.37 specifically allows
     professional service costs for those who are members of a
     profession or possess a specialized skill. The cooperative
     agreement received the benefits of the professional service work
     performed. Further, the University and NIJ believe the cost of
     these services to be fair and equitable to the agreement and the
     Federal government.

     As noted above, the University's purchasing and procurement
     policies allow for an exemption from competitively bidding on
     contracts for professional services. Of the contracts questioned
     by OIG, all but two are for professional services (the other two
     were for the work in the explosives area and are discussed
     below). One of the professional services contracts involved a


                                    57

                                                            APPENDIX X



former full time benefitted employee of the University who
worked exclusively on NIJ/WPSTC related issues. During the
recent budget decrease, in an effort to save government
resources while still maintaining the level of service NIJ
expected, this employee gave up her full time benefitted position
and accept a professional services contract. The net result was a
savings to the cooperative agreement by avoiding payment for
fringe benefits and the associated indirect costs of a full-time
employee. … The net result was that the individual was able to
maintain a monthly salary similar to what she would have
earned as an employee and the cooperative agreement paid
considerably less for her services. Thus, significant cost savings
were realized as contemplated by OMB Circular A-21,
Attachment J.37. It would be impractical to competitively bid a
professional services contract in this type of situation, even if it
were required.

Other contracts that are mentioned in the OIG report are for
individuals, most of whom have organized themselves as sole
proprietor limited liability companies, and who are recognized as
national subject matter experts. As small businesses, these
contractors would be provided preferential consideration even if
a competitive bid process was required. These individuals are
specifically recruited to participate in and manage certain
aspects of the WPSTC. The selection process for these individuals
is done in consultation with program managers at the NIJ and in
the spirit of the cooperative agreement. The selection process
follows the same process as would be followed if these
individuals were being considered for full time employment, i.e.
resume review, interview and background check. Because most
of these individuals also work on other government and non-
government contracts, the only way to retain their services is
through a professional services contract. The rate of payment is
determined, using as a basis, the rate of compensation that the
University of Denver would pay, if these experts were hired as
full time benefitted employees. A competitive bid process would
defeat the objectives of hiring these identified subject matter
experts. By not making these individuals full time benefitted
employees, there is a significant cost savings realized by the
cooperative agreement.


                                58

                                                                  APPENDIX X




      In both of the above instances, the University believes that the
      OIG has mischaracterized the scope of work, the nature of work
      and the benefit to the cooperative agreement by allowing
      individuals to be retained by the University of Denver under a
      professional services contract.

       …
      The University also firmly believes that all of the contractor costs
      (and any associated indirect costs) are specifically allowable
      under OMB Circular A-21 of which the cooperative agreement
      received fair and equitable benefit. In this regard, the factors
      specified in OMB Circular A-21 , Attachment J.37, such as a
      comparison with in house costs, the customary nature of the
      fees charge (as corroborated by NIJ), and past patterns of
      procuring such services, all support the University's practices in
      this case.

      According to Special Condition 24 of the award package, "any
contracts under this award should be made in accordance with the
procurement standards set out in applicable regulations and the current
edition of the OJP Financial Guide." Also, the OJP Financial Guide states that
"recipients and subrecipients shall use their own procurement procedures
and regulations, provided that the procurement conforms to applicable
Federal law and the standards identified in the Procurement Standards
Sections of 28 CFR Parts 66 and 70." According to the procurement
standards listed in 28 CFR Part 70, "all procurement transactions must be
conducted in a manner to provide, to the maximum extent practical, open
and free competition."

       Specifically, according to 28 CFR Part 70, regarding procurements,
recipients must, on request, make available for the Department, pre-award
review and procurement documents, such as request for proposals or
invitations for bids, independent cost estimates, etc., when any of the
following conditions apply; including when the procurement is expected to
exceed the small purchase threshold fixed at 41 U.S.C. 403 (11) (currently
$25,000) and is to be awarded without competition or only one bid or offer
is received in response to a solicitation.

      As stated in the report, we determined that University of
Denver’s exclusion from the competitive bidding practice does not
appear to conform to the standards set forth in the OJP Financial Guide
and in 28 CFR Part 70. Therefore, the University of Denver must


                                      59

                                                                 APPENDIX X



follow the procurement guidelines set forth in these criteria rather than
their own policies and procedures for procurement transactions funded
by federal money. As such, procurement transactions under the
cooperative agreement should have been conducted in a manner to
provide, to the maximum extent practical, open and free competition,
regardless of the dollar amount.

      We do not contest the University of Denver’s use of professional
service contracts for the WPSTC Program. We acknowledge that
interviewing and background checks are an important part of the
selection process, whether for an employee or a contractor. However,
when competitive bidding practices are not conducted, there is no
assurance that the procurements made provide the maximum benefit
for the federal government and the cooperative agreement, regardless
of whether the contractors are paid amounts that they would have
been paid as University employees. Therefore, we still consider these
contracts to not be competitively bid, and still considered in our
recommendation.

     University of Denver’s Response to recommendation 6 on pages
48-49 of this report states:

      After review of the contract, the University of Denver concurs
      that the travel agent contract as executed is a "cost-plus-a­
      percentage-of-cost" contract. The University will work with the
      NIJ to better clarify the contractual language and, if necessary,
      modify this contract to a form of a "cost-plus-fixed-fee" contract.

      However, the University of Denver does not concur that the fee
      paid to the travel contractor is totally unallowable. This service
      fee is an allowable cost under OMB Circular A-21 and the
      cooperative agreement received the benefit of these services.
      The University also firmly believes the cost for these services to
      be fair and equitable to the cooperative agreement and the
      Federal government. … This contractor books lodging, airfare
      and makes per diem expense reimbursements for travelers
      identified by NLECTC and NIJ for travel to official functions,
      meetings, conferences and events. This contractor must book
      lodging for all travelers that utilize its services at or below
      government authorized per diem rates. The lodging venues are
      those that have been preselected and approved by NIJ.
      Additionally, this contractor reimburses travelers for MI&E


                                      60

                                                                  APPENDIX X



      according to the OPM approved per diem rates. Thus, there is no
      ability for this contractor to gain any advantage in profit in its
      obligation to book rooms or make MI&E reimbursements.

      This contractor also books airline tickets. Because airfare prices
      are not fixed, NLECTC staff monitors every ticket that is
      purchased. NLECTC staff conducts a cost survey for airfare in the
      planning of all events and thus has a reasonable expectation of
      what price should be paid for airfare. Every ticket purchased is
      monitored by NLECTC staff and there has not been one instance
      wherein a ticket price has been found to be excessive. No airline
      change fees, rescheduling fees or other costs are allowed by this
      contractor without prior NLECTC staff approval. Approval is
      reserved for instances where there is a legitimate need to make
      such changes.

      In fact, because this contractor is given specific date and time
      windows allowed for arrival and departure, there are generally
      only a few airline options available for selection. As an added
      layer of assurance that this contractor is booking airfare at the
      lowest price, this contractor has been instructed to find the
      lowest airfare using no more than one layover in making all
      airline reservations.

      As stated in the report, we concluded that it appears that
generally the program is sufficient at monitoring their contractors. We
acknowledge the internal controls implemented to monitor the travel
contractor’s performance, especially pertaining to ensuring that costs
are not in excess, are necessary. However, as stated in the report and
in the University of Denver’s response, the contracting method utilized
for the travel contractor appears to be
‘cost-plus-a-percentage-of-cost.’ This is unallowable under 28 CFR
Part 70, and therefore, we still consider the $77,814 in fees charged
from the travel contractor to be unallowable.

      In its response, the University of Denver agreed with our
recommendation that all contractors be required to provide
documentation to support their services, but disagreed with the
provision of time and effort reports. According to the 2009 OJP
Financial Guide, direct recipients should be familiar with, and
periodically monitor, their subrecipients’ financial operations, records,
systems, and procedures. Particular attention should be directed to

                                       61

                                                              APPENDIX X



the maintenance of current financial data. During transaction testing
we noted that 1 of the 11 contractors did not submit a timesheet,
detailed invoice, or any other form of documentation to support work
performed and services rendered under the program. We believe that
all contractors should consistently provide adequate documentation
relating to the charges being billed to the grant in order to be
compensated. We modified the report to clarify this conclusion.




                                    62

                                                                                                APPENDIX XI


OFFICE OF JUSTICE PROGRAMS RESPONSE TO DRAFT AUDIT REPORT



                                                          u.s. Department of J ustice
                                                          Office of Justice Programs

                                                          Office of Audit, Assessment, and Management




      MEMORANDUM TO:                David M. Sheeren
                                    Regiona! Audit Manager
                                    Office of the Inspector General
                                    Denver Rcgional Audit Office

      FROM:                         Maureen A. Henneberg
                                    Director )vV\ ~·~r

      SUBJECT:                      Response to the Draft Audit Report, Office ofJustice Prugrams,
                                    Natiunal Im-litute ofJustice Continuation Cooperative Agreement
                                    Awarded to the University of Denver for Operation of Weapons
                                    and Protective Syste ms Technology Center of Excellence,
                                    Denver, Colorado

      This memorandum is in response \0' your correspondence, dated January II, 2011 , transmitting
      the subject draft aud it report for the University of Denver (University). We consider the subject
      report resolved and request written acceptance of this action from your office.

      The report contains seven recommendations and 5589,64 1 in questioned costs. The following is
      the Office of Justice Programs' analysis of the draft audit report recommendations. For ease of
      review, the recom mendations are restated in bold and are followed by our tel.-ponse.

      1.      We recommend tbat OJP remedy th e $1,134 in unallowable transaction costs.

              We agree with the recommendation. We will coordinate with the University to remedy
              the $1,134 in questioned transaction costs that were charged to cooperative agreement
              2009-IJ-CX-KOIO.

      2.      We recommend that OJP remedy tbe $9,038 in travel costs that were charged 10
              another National Law Enforcement a nd CorrectioD5 Technology Center (NLEcr c )
              program.

              We agree with the rceommendation. We will coordinate with the University to remedy
              the $9,038 in questioned travel C0515that were charged to cooperative agreement
              2009-IJ-CX-K010.




                                                      63

                                                                                         APPENDIX XI





3.     We recommend that O.lP ensure that University of Denver offieials implement
       polieies and critcria to determine how NLECTC activities should be charged to the
       appropriate program.

       Wc agree with thc rccommcndation. Wc will coordinate with the University to obtain a
       copy of implemented pol icies and procedures to ensure that National Law Enforcement
       and Corrections Technology Center activities arc properl y charged to thc appropriate
       program.

4.     We rccommend that Q,JP rem edy thc $47,370 in pcnonnel cosb for personnel not
       illcluded ill the a pproved cooperative agreement budgct.

       We agrce with thc recommendation. Wc will coordinate wit h thc Univcrsity to rcmed y
       the $47,370 in unapproved personnel costs that were charged to cooperative agreement
       2009-IJ-CX-KOIO.

5.     We recommend that O.lP remedy the $454,285 in costs for cOlltracts that were not
       competitively bid.

       Wc agree with the recommendation. We will coordinate with the University to remedy
       the $454,285 in q uestioned costs associated with contracts that were not competitively
       bid, and were charged to cooperative agreement 2009-IJ-CX-KOIO.

6.     We recoulmend that 0.11' remedy the $77,814 ill unallowable costs for fees chargcd
       from a cost-plus-a-percentage-of-cost contract.

       We agree with tht: rt:eommendation. We will coordinate with the University to remedy
       the $77,814 in unallowable costs for fees chargcd from a cost-plus-a-pereentagc-of-cost
       contract that were charged to cooperative agreement 2009-[J-CX-KOI O.

7.     Wc recommcnd that OJP ensure that Univcnity of Denver offiei als require that all
       contractors provide documenta tion of their services I't'ndered, as well as time and
       cffort reports in o rder to be compensatcd.

       We agree with the recommendation. We will coordinate with the University to obtain a
       copy of implemented procedures for ensuring that sufficient documentation is obtained
       from contractors, including time and effort reports, to support the services rendered and
       related compensation amounts.

We appreciate the opportunity to review and comment on thc draft audit rcport. If you havc any
questions or require additional information, please contact Jeffery A. I-Ialey, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:    Jeffery A. I·Iaky
       Deputy Director, Audit and Rev iew Division
       Omce of Audit, Assessment, and Management


                                                2




                                               64
                                                    APPENDIX XI





cc:   Diane Hughes
      Office Director, Office of Operations
      National Institute of Justice

      Charlene Hun ter
      Grant Program Specialist, Audit Liaison
      National Institute of Justice

      Drian Montgomery
      Program Manager
      National Institute of JlL~lice

      Richard Theis
      Assistant Director
      Audit Liaison Group
      Justice Management Division

      OlP Executive Secretariat
      Control Number 20 110078




                                                3




                                              65
                                                        APPENDIX XII



   OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION,

 ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO CLOSE

                     AUDIT REPORT


       Pursuant to OMB Circular A-50 Revised, Audit Follow-up,
responses to audit reports are defined as “written comments by
agency officials indicating agreement or disagreement on reported
findings and recommendations. Comments indicating agreement on
final reports shall include planned corrective actions and, where
appropriate, dates for achieving actions. Comments indicating
disagreement shall explain fully the reasons for disagreement. Where
disagreement is based on interpretation of law, regulation, or the
authority of officials to take or not to take action, the response must
include the legal basis.”

1.	   Resolved. This recommendation can be closed when we receive
      documentation that OJP has remedied the $1,134 in unallowable
      transaction costs.

2.	   Resolved. This recommendation can be closed when we receive
      documentation that OJP has remedied the $9,038 in travel costs
      that were charged to another NLECTC program.

3.	   Resolved. This recommendation can be closed when we receive
      documentation from OJP showing that the University of Denver
      has implemented policies and criteria to determine how NLECTC
      activities should be charged to the appropriate program.

4.	   Resolved. This recommendation can be closed when we receive
      documentation that OJP has remedied the $44,071 in personnel
      costs for personnel not included in the approved cooperative
      agreement budget.

5.	   Resolved. This recommendation can be closed when we receive
      documentation that OJP has remedied the costs for contractors
      that were not competitively bid. Regarding the contractor who
      helps the National Bomb Squad Commanders Advisory Board
      (mentioned on page 24 of this report), costs for this contractor
      can be remedied when we receive documentation that NIJ
      officials approved this contractor’s exception to Special Condition
      24 of the award.

6.	   Resolved. This recommendation can be closed when we receive
      documentation that OJP has remedied the $77,814 in


                                   66

                                                    APPENDIX XII



      unallowable costs for fees charged from a 

      cost-plus-a-percentage-of-cost contract.


7.	   Resolved. This recommendation can be closed when we receive
      documentation from OJP showing that the University of Denver
      implemented policies to ensure that all contractors provide
      adequate documentation of their services rendered.




                                  67

